No. 20-

IN THE
SUPREME COURT OF THE UNITED STATES

George Matthews and Nina Matthews
Petitioners,
vs.
David Merbaum and Andrew Becker
Respondents.

On Petition for a Writ of Certiorari to
The United States Court of Appeals
For the Eleventh Circuit
APPENDIX TO THE PETITION FOR A WRIT OF CERTIORARI

George Matthews
Nina Matthews
6038 Katie Emma Drive
Powder Springs, Georgia 30127
Tel.: 404-213-8324
E-Mail: matthews.6038@vahoo.com
Pro-Se Petitioners

TABLE OF CONTENTS
Appendix A

Appendix B

Appendix C

Appendix D

Appendix E

Appendix F

Opinion of the United States Court of Appeals For the
Eleventh Circuit No. 19-15001
Filed Date: June 2, 2020
George Matthews and Nina Matthews v. State Farm Fire
And Casualty Company Interested Parties-Appellees
Andrew J. Becker, David Jason Merbaum...........................

1

Order of the United States District Court For The
Northern District Court of Georgia Atlanta Division
No. 1:10-CV-1641
Filed Date: November 12, 2019
George Matthews, Nina Matthews v. State Farm Fire
And Casualty Company Respondents:
Andrew J. Becker, David Jason Merbaum....................

2

Opinion of the United States District Court For The
Northern District Court of Georgia Atlanta Division
No. 1:10-CV-1641
Filed Date: February 3, 2012
George Matthews, Nina Matthews v. State Farm Fire
And Casualty Company....................................................

3

Order of the United States Bankruptcy Court For The
Northern District Court of Georgia Atlanta Division
No. 11-63910
Filed Date: September 16, 2015
Merbaum Law Group, RC. v. George Matthews...............

4

Order of the Superior Court of Cobb County
State of Georgia
No. 15-1-3498-51
Filed Date: August 4, 2017
Order and Final Judgment
Merbaum Law Group v. Nina Matthews.......

5

Order of the Superior Court of Cobb County
State of Georgia
No. 15-1-3498-51
Filed Date: December 12, 2019
Final Order Dismissing Case Without Prejudice
Merbaum Law Group v. Nina Matthews...............

6

Appendix G

Appendix H

Appendix I

Transcript - United States District Court For The
Northern District Court of Georgia Atlanta Division
No. 1:10-CV-1641
Filed Date: April 12, 2012
George Matthews, Nina Matthews v. State Farm Fire
And Casualty Company Respondents:
Andrew J. Becker, David Jason Merbaum...................

7

Order - United States District Court For The
Northern District Court of Georgia Atlanta Division
No. 1:10-CV-1641
Filed Date: January 5, 2011
George Matthews, Nina Matthews v. State Farm Fire
And Casualty Company.................................................

8

Order of the United States Bankruptcy Court For The
Northern District Court of Georgia Atlanta Division
No. 11-63910
Filed Date: November 10, 2015
Merbaum Law Group, R C. v. George Matthews
And Nina Matthews.........................................................

9

Appendix A
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-15001
GEORGE MATTHEWS, NINA MATTTHEWS Plaintiffs
v.
STATE FARM FIRE & CASUALTY COMPANY Defendant
Andrew J. Becker
David Jason Merbaum Appellees
Filed: June 2, 2020
OPINION
Before: BRANCH, FAY and HULL, Circuit Judges

1

Date Filed: 06/02/2020

Case: 19-15001

Page: 1 of 17

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-15001
Non-Argument Calendar
D.C. Docket No. l:10-cv-01641-SCJ
GEORGE MATTHEWS,
NINA MATTHEWS,
Plaintiffs-Appellants,
versus
STATE FARM FIRE & CASUALTY COMPANY,
Defendant,
ANDREW J. BECKER,
DAVID JASON MERBAUM,
Interested Parties-Appellees.

Appeal from the United States District Court
for the Northern District of Georgia
(June 2,2020)

[a

Case: 19-15001

Date Filed: 06/02/2020

Page: 2 of 17

Before BRANCH, FAY and HULL, Circuit Judges.
PER CURIAM:
This appeal stems from a 2010 suit that the plaintiffs-appellants, George
Matthews and Nina Matthews (“the Plaintiffs”), filed against their homeowners
insurance company, State Farm Fire and Casualty Company (“State Farm”). The
appellees, David Merbaum and Andrew Becker (“the M&B Attorneys”) initially
represented the Plaintiffs but eventually withdrew due to a fee dispute. In 2012,
the Plaintiffs’ State Farm suit ended when this Court affirmed the district court’s
entry of summary judgment in favor of State Farm.
Several years later, in 2019, the Plaintiffs filed a pro se motion to hold the
M&B Attorneys in civil contempt for their alleged failure to follow a 2010 court
order about the fee dispute in the State Farm suit. The Plaintiffs also filed a motion
to recuse District Court Judge Steve Jones from presiding over the contempt
proceedings based on his previous involvement in the State Farm suit and his
receipt of an “extrajudicial document,” namely a grievance the Plaintiffs filed
about Judge Jones with the Georgia Attorney General. District Court Judge Jones
denied both motions. The Plaintiffs now appeal those rulings. After review, we
conclude the district court properly denied both motions and affirm.

2

2a

Case: 19-15001

Date Filed: 06/02/2020

Page: 3 of 17

I. BACKGROUND l
A.

Plaintiffs’ 2010 State Farm Suit & M&B Attorneys’ First Motion to
Withdraw
In April 2010, the Plaintiffs filed their suit against State Farm for breach of

contract and bad faith based on its alleged failure to pay the full loss amount
caused by tree damage to their home. While the Plaintiffs initiated the suit in state
court, State Farm removed it to federal court on the basis of diversity jurisdiction.
The case was assigned to District Court Judge Willis Hunt.
The Plaintiffs retained M&B Attorneys Merbaum and Becker who were with
the Merbaum Law Group, PC (“Merbaum Law”). According to their original
Attorney-Client Contract, the Plaintiffs were to pay the M&B Attorneys on an
hourly basis for all work performed in the State Farm matter, as well as a $1,500
retainer and any out-of-pocket expenses.
During the discovery phase of the litigation, communications between the
Plaintiffs and the M&B Attorneys broke down, and the M&B Attorneys filed their
first motion to withdraw from representation. The Plaintiffs objected to the
withdrawal.

'The M&B Attorneys object to documents in the Plaintiffs’ Appendix that were not
submitted to the district court. We agree and decline to consider those documents. See 11th Cir.
R. 3 0-1 (a) (providing that, generally, “under no circumstances should a document be included in
the appendix that was not submitted to the trial court”).
3

3a

Case: 19-15001

B.

Date Filed: 06/02/2020

Page: 4 of 17

District Court’s October 25,2010 Oral Order
At an October 25,2010 hearing, the parties notified the district court of their

inability to reach a fee agreement and their disagreements on how to proceed in the
suit against State Farm. The parties explained that the M&B Attorneys began
representing the Plaintiffs pursuant to an hourly fee agreement. After the retainer
and first bill were paid, however, the Plaintiffs asked to switch to a contingency
basis. The parties failed to reach a new contingency fee agreement, and the
Plaintiffs’ outstanding bill of almost $20,000 for legal services rendered thus far
went unpaid. At one point, the M&B Attorneys sent the Plaintiffs a letter offering
to settle all amounts owed for only $500 in out-of-pocket fees if the Plaintiffs
would consent to the Attorneys’ withdrawal (“Settlement Letter”).
District Court Judge Hunt stressed his preference that the parties reconcile,
stating that the parties needed to “agree on contingency, work that out, and see if
you can’t take a few depositions and at least have mediation and see where you are
there.” Judge Hunt instructed that, if the parties could not come to a resolution by
the end of the week, they should notify the court. If unable to reconcile, Judge
Hunt stated that he would grant the M&B Attorneys’ motion to withdraw on the
conditions stated in the Settlement Letter, that “aside from some out-of-pocket
costs—there would be no additional charge to the plaintiffs.” Judge Hunt
reiterated, “[b]ut I do want you to have this meeting between the parties to see if
4

4a

Case: 19-15001

Date Filed: 06/02/2020

Page: 5 of 17

there isn’t some way you can get along.” Judge Hunt instructed the M&B
Attorneys to report back by October 29,2010.2
On October 28,2010—just three days after the hearing—the parties
executed an Amendment to their original Attorney-Client Contract (“the
Amendment”). The Amendment stated that: (1) the Plaintiffs agreed to pay $7,500
for all legal work performed through October 27,2010; (2) all work performed
after October 27 would be billed at an hourly rate of $225; and (3) the Plaintiffs’
$1,500 retainer would be applied to their prior bill.
On November 5,2010, based on the parties’ reconciliation, the M&B
Attorneys withdrew their first motion to withdraw.
C.

M&B Attorneys’ Second Motion to Withdraw & Summary Judgment
Subsequently, the Plaintiffs incurred additional attorney’s fees, which they

failed to pay. On December 23,2010, the M&B Attorneys filed their second
motion to withdraw. Over the Plaintiffs’ objection, Judge Hunt granted the M&B

2Judge Hunt’s instruction went as follows:
... I want you to agree . . . that the Matthews[es] come by your office before the
end of this week, give them at least an hour’s time, talk to them, and if at the end
of that time you cannot get out, let us know. I will then relieve the lawyers of their
responsibility on the conditions set forth in their letter, and that is that there be no
additional—aside from some out-of-pocket costs—there would be no additional
charge to the plaintiffs. And then they can go and get a lawyer maybe who will
agree to take it on a contingency and move forward.
But I do want you to have this meeting between the parties to see if there
isn’t some way you can get along.
The hearing minutes indicated that the court “ordered [the parties] to make another attempt to
reconcile their differences.”
5

5a

Case: 19-15001

Date Filed: 06/02/2020

Page: 6 of 17

Attorneys’ motion to withdraw and stayed discovery while the Plaintiffs sought
new counsel. The order said nothing about the parties’ fee arrangement or the
conditions in the Settlement Letter.
In March 2011, the case was reassigned to District Court Judge Steve Jones.
State Farm moved for summary judgment, which the now pro se Plaintiffs
opposed.
In 2012, Judge Jones granted State Farm’s summary judgment motion on all
claims, dismissed the Plaintiffs’ suit, and awarded State Farm its costs. The
Plaintiffs nro se appealed, and this Court affirmed. Matthews v. State Farm Fire &
Cas. Co.. 500 F. App’x 836, 837, 843 (11th Cir. 2012).
D.

M&B Attorneys’ 2015 Lawsuit Against Plaintiffs in State Court
In 2015, Merbaum Law sued the Plaintiffs in state court to recover their

outstanding bills. Plaintiff George Matthews received a discharge in bankruptcy
court and was dismissed from the state court suit in 2017. In August 2017, the
state court entered judgement in favor of Merbaum Law and against Plaintiff Nina
Matthews for $39,902.66 in attorney’s fees and expenses plus interest and late fees.
Nina Matthews filed unsuccessful challenges to the state court judgment.
E.

Plaintiffs’ 2019 Motions for Contempt and Recusal in Federal Court
In July 2019—six years after this Court affirmed the district court’s

judgment in favor of State Farm—the Plaintiffs filed a motion for civil contempt
6

G,a

Case: 19-15001

Date Filed: 06/02/2020

Page: 7 of 17

against the M&B Attorneys and a motion to recuse District Court Judge Jones from
presiding over the contempt proceedings.
In their motion for contempt, the Plaintiffs alleged that the M&B Attorneys
intentionally violated District Court Judge Hunt’s October 25,2010 oral order.
The Plaintiffs claimed that, at the October 25 hearing, Judge Hunt ordered the
M&B Attorneys to either (a) reconcile with the Plaintiffs by creating a contingency
contract or (b) withdraw from the case with no additional charges beyond $500 in
out-of-pocket costs under the terms of their Settlement Letter, The Plaintiffs
asserted that the M&B Attorneys violated that oral order by withdrawing from the
case and by making numerous attempts to collect attorney’s fees beyond the $500
out-of-pocket fees.3 The Plaintiffs additionally requested that the district
court remove the state court and bankruptcy judgments against the Plaintiffs,
impose sanctions and a “coercive daily fine” against the M&B Attorneys,
reprimand them, and consider filing for their disbarment.
In their motion to recuse and supporting affidavits, the Plaintiffs asserted
that District Court Judge Jones “pose[d] a threat to an objective ruling” on their
contempt motion for two reasons. First, the Plaintiffs claimed that, in the
3The Plaintiffs alleged that the M&B Attorneys: (1) filed a notice of attorney lien in state
court for $18,251.90 plus interest for legal fees in the State Farm litigation; (2) sent the Plaintiffs
an email demanding $20,000 and threatening further litigation; (3) filed a claim in George
Matthew’s bankruptcy proceeding and obtained an order for $19,928.83; (4) brought a
breach-of-contract action in state court and obtained a judgment for $39,902.66; and (5) filed a
garnishment in state court stating that Nina Matthews owed them $57,226.20.
7

'l'a

Case: 19-15001

Date Filed: 06/02/2020

Page: 8 of 17

underlying State Farm suit, Judge Jones allowed State Farm to admit allegedly
fabricated documents and relied upon those documents in granting summary
judgment for State Farm.
Second, the Plaintiffs claimed they sent Judge Jones an “extrajudicial
source” of information, to wit their grievance filed with the Georgia Attorney
General. The grievance accused Judge Jones of relying on the allegedly fabricated
documents and of failing to punish State Farm’s counsel. The grievance also
stated that the M&B Attorneys withheld information and documents from the
Plaintiffs and described the Attorneys’ alleged violations of District Court Judge
Hunt’s October 25 oral order. The Plaintiffs attached their grievance and the
Georgia Attorney General’s rejection of the grievance. The Plaintiffs argued that
“Judge Jones’s ruling history over this case and preconceived opinions that may
have been developed after being sent the grievance ... would cause anyone ... to
reasonably doubt [his] impartiality to preside over this contempt hearing.”
Opposing the Plaintiffs’ contempt motion, the M&B Attorneys emphasized
that they had not violated any order. The M&B Attorneys argued that: (1) Judge
Hunt’s October 25 oral order merely instructed the parties to attempt to reconcile,
which they did by executing the Amendment to the Attorney-Client Contract; and
(2) the Plaintiffs were abusing the court system in an attempt to avoid execution of
the state court judgment.
8
%a

Case: 19-15001

F.

Date Filed: 06/02/2020

Page: 9 of 17

District Court’s Order Denying Plaintiffs’ Motions
In November 2019, District Court Judge Jones denied the Plaintiffs’ motions

to recuse and for contempt, As to the recusal motion, Judge Jones determined that
the Plaintiffs’ grievance, alone, did not warrant recusal and stated that he
“approaches each of [his] cases with integrity, professionalism, and impartiality.”
As to the contempt motion, Judge Jones found no evidence that the M&B
Attorneys did not comply with Judge Hunt’s October 25 oral order, “which was for
the parties to essentially make an attempt at reconciliation.” Judge Jones found
that the Amendment to the Attorney-Client Contract and the withdrawal of the
M&B Attorneys’ first motion to withdraw indicated that the parties had reconciled.
Therefore, the latter part of Judge Hunt’s order that was contingent on the parties’
failure to reconcile never became effective. While recognizing that the
reconciliation later fell apart and that the M&B Attorneys successfully filed a
second motion to withdraw, Judge Jones determined that these circumstances were
irrelevant because they “were not within the contingency of’ Judge Hunt’s October
25 oral order.
This is the Plaintiffs’ appeal.
II. MOTION TO RECUSE
On appeal, the Plaintiffs argue that Judge Jones abused his discretion by
failing to recuse himself based on: (1) his previous involvement in the case, and
9

G( a

Case: 19-15001

Date Filed: 06/02/2020

Page: 10 of 17

(2) his receipt of the Plaintiffs’ “extrajudicial” grievance complaining of his and
the M&B Attorneys’ conduct.4 The Plaintiffs assert that these circumstances
called Judge Jones’s impartiality into question.
Recusal is governed by two statutes—28 U.S.C. §§ 144 and 455. Under
§ 144, a party may seek the presiding judge’s recusal by filing a “timely and
sufficient affidavit” showing that the judge “has a personal bias or prejudice either
against him or in favor of any adverse party.” 28 U.S.C. § 144. The party “must
allege facts that would convince a reasonable person that bias actually exists.”
Christo v. Padgett. 223 F.3d 1324,1333 (11th Cir. 2000). The party’s properly
pleaded facts in his § 144 affidavit must be taken as true. Id.
Under § 455, a judge must recuse himself when “his impartiality might
reasonably be questioned” or when “he has a personal bias or prejudice concerning
a party, or personal knowledge of disputed evidentiary facts concerning the
proceeding.” 28 U.S.C. § 455(a), (b)(1). In reviewing a judge’s decision not to
recuse, we ask whether an objective, disinterested, and fully informed lay observer

'’This Court reviews a judge’s decision not to recuse himself for an abuse of discretion.
Tenlritis V Anton. 922 F.3d 1257, 1271 (11th Cir. 2019). “A district court abuses its discretion if
it applies an incorrect legal standard, applies the law in an unreasonable or incorrect manner,
follows improper procedures in making a determination, or makes findings of fact that are
clearly erroneous.” F.T.C. v. Nat’l Urological Grp.. Inc.. 785 F.3d 477,481 (11th Cir. 2015)
(quotation marks omitted).
On appeal, the Plaintiffs make no mention of their other basis for recusal—that Judge
Jones admitted and relied upon State Farm’s allegedly fabricated documents during the summary
judgment proceedings. Thus, they have abandoned any challenge for recusal on that basis.
10
io:a

Case: 19-15001

Date Filed: 06/02/2020

Page: 11 of 17

would entertain a significant doubt about the judge’s impartiality. Jenkins v.
Anton. 922 F.3d 1257,1271 (11th Cir. 2019).
Under either §§ 144 or 455, the nature of the alleged bias must be personal,
rather than judicial. United States v. Meester. 762 F.2d 867, 884 (11th Cir. 1985).
In other words, the bias must stem from “extrajudicial sources,” or “the judge’s
acts [must] demonstrate such pervasive bias and prejudice that it unfairly
prejudices one of the parties.” United States v. Bailev. 175 F.3d 966, 968 (11th
Cir. 1999) (quotation marks omitted).
The Plaintiffs have failed to demonstrate how District Court Judge Jones
abused his discretion in this case, under either §§ 144 or 455. Judge Jones’s prior
involvement in the underlying State Farm suit is not a personal, extrajudicial bias.
See Christo, 223 F.3d at 1334 (providing that recusal is not required simply
because the particular judge “presided over previous ... civil trials involving the
same parties”); see also Litekv v. United States. 510 U.S. 540, 555,114 S. Ct.
1147,1157 (1994) (explaining that a judge’s opinions formed based on facts or
events occurring during present or past proceedings do not support recusal, unless
those opinions reflect “a deep-seated favoritism or antagonism that would make
fair judgment impossible”).
Nor is the Plaintiffs’ filing of a grievance against Judge Jones sufficient to
warrant his recusal. See In re Evergreen Sec.. Ltd.. 570 F.3d 1257,1265 (11th Cir.
#

11
U a

Case: 19-15001

Date Filed: 06/02/2020

Page: 12 of 17

2009) (“The mere filing of a complaint ofjudicial misconduct is not grounds for
recusal.”)- While the Plaintiffs claim that the grievance contained specific
information about the M&B Attorneys’ actions relevant to the contempt
proceedings, they do not allege which information, if any, the grievance contained
that was beyond or different from what was revealed to Judge Jones during the
contempt proceedings (i.e., through the Plaintiffs’ motion for contempt, the M&B
Attorneys’ response, and the parties’ attached documents).
The Plaintiffs’ motion alleged no further facts that would cause Judge
Jones’s impartiality to reasonably be questioned, that showed personal bias or
prejudice, or that demonstrated he had personal knowledge of disputed evidentiary
facts concerning the proceeding. See 28 U.S.C. §§ 144,455. Accordingly, Judge
Jones did not abuse his discretion in declining to recuse himself from the contempt
proceedings.
III. MOTION FOR CIVIL CONTEMPT
Next, the Plaintiffs argue that District Court Judge Jones abused his
discretion, and denied them due process, when he denied their motion for contempt
without ordering the M&B Attorneys to show cause.5 The Plaintiffs assert that,

5This Court reviews for an abuse of discretion the district court’s ruling on a motion for
civil contempt. Nat’l Urological Grp., 785 F.3d at 481. This Court also reviews for an abuse of
discretion a district court’s interpretation of its own orders. Tn re Manager! Care, 756 F 3d 1222
1234 (11th Cir. 2014).
’
’
12
jZ-a

Case: 19-15001

Date Filed: 06/02/2020

Page: 13 of 17

because they made a prima facie showing that the M&B Attorneys violated Judge
Hunt’s October 25 oral order, the burden shifted to the Attorneys to show cause
that they did not violate the order.6
“Courts have the inherent power to enforce compliance with their orders
through civil contempt.” U.S. Commodity Futures Trading Comm’n v. Escobio,
946 F.3d 1242,1255 (11th Cir. 2020). Upon filing a motion for civil contempt, the
movants—here, the Plaintiffs—bear the initial burden of proving, by clear and
convincing evidence, the alleged contemnors noncompliance with a prior court
order. Thomas v. Bhie Cross & Blue Shield Ass’n, 594 F.3d 814, 821 (11th Cir.
2010). “The clear and convincing evidence must establish that: (1) the allegedly
violated order was valid and lawful; (2) the order was clear and unambiguous; and
(3) the alleged violators] had the ability to comply with the order.” Ga. Power Co.

6The Plaintiffs contend that Judge Hunt entered ten “orders” during the October 25
hearing and that those orders were “suppressed” and “never entered [onto] the court [docket].”
The Plaintiffs identify the ten “orders” in a chart they prepared. The Plaintiffs assert that the„
“records were tampered [with] in the [district] court record by recording only a partial order,”
which allowed the M&B Attorneys to argue “an alternative conclusion than what Judge Hunt
[actually] ordered.”
There is simply no record evidence supporting the Plaintiffs’ claims of suppressed orders
and transcript tampering, nor have they provided any such evidence. The transcript of the
October 25, 2010 hearing is available bn the district court docket, and there is no indication from
the face of the transcript that it has been tampered with. Moreover, the only order by Judge Hunt
that is relevant to this appeal—that the parties meet and attempt to reconcile—was an oral order
that is sufficiently reflected in the transcript and in the hearing minutes. There is no indication
that Judge Hunt made or entered a written order on this matter. Thus, there was no such written
order to “suppress.” The remaining alleged nine “orders” identified by the Plaintiffs were
merely statements Judge Hunt made to the parties during the hearing in relation to its ultimate
oral order, and each of those nine statements was included in the transcript of the hearing.
#

13
i3;a

Case: 19-15001

V. N.L.R.BLZ9

Date Filed: 06/02/2020

Page: 14 of 17

484 F.3d 1288,1291 (11th Cir. 2007) (emphasis omitted). Once the

movants make a prana facie showing of a violation, the burden shifts to the alleged
contemnore—here, the M&B Attorneys—to produce evidence explaining their
noncompliance at a show cause hearing. Thomas, 594 F.3d at 821.
To determine whether a party is in contempt of a district court s order, the
order is subject to reasonable interpretation and may not be expanded beyond the
meaning of its terms without notice and an opportunity to be heard. Ga. Power
Co., 484 F.3d at 1291. This Court construes any ambiguities or uncertainties in the
court order in the light most favorable to the party charged with contempt. Id.
lcL We
look not to the subjective beliefs or intent of the alleged contemnor m complymg
with the subject order, but to whether in fact the alleged contemnor complied with
the order. Id.
Here, the district court did not abuse its discretion in denying the Plaintiffs’
contempt motion. See F.T.C. v._ NatT Urological Grp., Ina, 785 F.3d 477,481
(11th Cir. 2015). As an initial matter, Judge Jones did not abuse his discretion in
construing Judge Hunt’s October 25,2010 oral order as an order “for the parties to
essentially make an attempt at reconciliation.” See In re Managed Care, 756 F.3d
1222, 1234 (11th Cir. 2014). At the October 25 hearing, Judge Hunt stressed his
preference that the parties reconcile and ordered the parties to confer and attempt
to reconcile by the end of the week. In fact, Judge Hunt instructed that he wanted
•

’

14

lTa

Case: 19-15001

Date Filed: 06/02/2020

Page: 14 of 17

v. N.L.R.B.. 484 F.3d 1288,1291 (11th Cir. 2007) (emphasis omitted). Once the
movants make a prima facie showing of a violation, the burden shifts to the alleged
contemnors—here, the M&B Attorneys—to produce evidence explaining their
noncompliance at a show cause hearing. Thomas. 594 F.3d at 821.
To determine whether a party is in contempt of a district court’s order, the
order is subject to reasonable interpretation and may not be expanded beyond the
meaning of its terms without notice and an opportunity to be heard. Ga. Power
Co.. 484 F.3d at 1291. This Court construes any ambiguities or uncertainties in the
court order in the light most favorable to the party charged with contempt. Id. We
look not to the subjective beliefs or intent of the alleged contemnor in complying
with the subject order, but to whether in fact the alleged contemnor complied with
the order. Id.
Here, the district court did not abuse its discretion in denying the Plaintiffs’
contempt motion. See F.T.C. v. Nat’l Urological Grp.. Inc.. 785 F.3d 477, 481
(11th Cir. 2015). As an initial matter, Judge Jones did not abuse his discretion in
construing Judge Hunt’s October 25,2010 oral order as an order “for the parties to
essentially make an attempt at reconciliation.” See In re Managed Care. 756 F.3d
1222, 1234 (11th Cir. 2014). At the October 25 hearing, Judge Hunt stressed his
preference that the parties reconcile and ordered the parties to confer and attempt
to reconcile by the end of the week. In fact, Judge Hunt instructed that he wanted
«

14
l^a

Case: 19-15001

Date Filed: 06/02/2020

the parties to meet at the M&B Attorneys
“have this meeting,” and ‘ see
hearing minute

Page: 15 of 17

office, talk for “at least an hour’s time,”

if there isn’t some way you can get along.” Even the

s reflected that Judge Hunt’s oral order was that the parties “make

another attempt to reconcile their differences.” Only if the parties were unable to
come to a

resolution were they to notify the court and was the court to take forther

ion to withdraw on the conditions stated
action (i.e., grant the M&B Attorneys motion
in the Settlement Letter).
The Plaintiffs contend that Judge Hunt s
merely requiring them to

October 25 oral order went beyond

reconcile, and rather required that either (a) the parties

agree to a contmgency fee arrangement in particular or (b) the M&B Attorneys
withdraw and recover only $500 in out-of-pocket costs.

However, the transcript of

the October 25 hearing evidences that Judge Hunt’s oral order was not this
definitive.
While Judge

Hunt did make one statement that the parties needed to “agree

on contingency,” he did so in the context of the parties’ indications that they
wished to reach a contingency fee agreement but had been unable to do so . This
single statement cannot reasonably be construed as an order that the M&B
Attorneys

could only continue representation on a contingency basis, regardless of

any subsequent agreement between the parties. Rather, the overall import of Judge
Hunt’s oral order was simply that the parties needed to meet “to see if there isn’t
15
|vo 3

Case: 19-15001

Date Filed: 06/02/2020

Page: 16 of 17

some way [they] c[ould] get along.” In any event, we must construe any
ambiguities or uncertainties in Judge Hunt’s October 25 oral order in the light most
favorable to the M&B Attorneys. See Ga. Power Co.. 484 F.3d at 1291. Thus, to
the extent there is any ambiguity, we read Judge Hunt’s oral order as directing the
parties to meet and attempt to reconcile as to the fee arrangement, not to require
the M&B Attorneys to either agree to a contingency fee arrangement or withdraw
with only $500 recompense.
Nor did Judge Jones abuse his discretion in determining that the M&B
Attorneys did not violate Judge Hunt’s October 25,2010 oral order. The record
evidences that, just three days after the October 25 hearing, the parties did meet
and confer as to a fee agreement. While the parties did not agree to a contingency
fee arrangement in particular, the M&B Attorneys proposed the Amendment to the
parties Attorney-Client Contract (proposing a flat rate for all work performed
through October 27 and an hourly rate for work performed after that date), and the
Plaintiffs signed and executed the Amendment on October 28,2010. The Plaintiffs
concede that they did in fact confer and agree to this fee arrangement on October
28, and they have never challenged the validity of the Amendment. Additionally,
neither party returned to the district court by October 29, or anytime thereafter, to
notify Judge Hunt that they had not come to a resolution. Rather, the M&B
Attorneys withdrew their first motion to withdraw, further evidencing their
16

17'a

Case: 19-15001

Date Filed: 06/02/2020 .

Page: 17 of 17

October 28 reconciliation.
Therefore, the record shows that the parties complied in fact with Judge
Hunt’s October 25 oral order “to essentially make an attempt at reconciliation.”
See id And, as Judge Jones determined, the parties’ post-reconciliation and postAmendment breakdown in communication was no longer subject to the October 25
oral order, with which the parties had already complied.
Because the Plaintiffs failed to make a prima facie showing that the M&B
Attorneys violated either Judge Hunt’s October 25 oral order or any other order,
the burden never shifted to the M&B Attorneys to explain their noncompliance at a
show cause hearing. See Thomas,-594 F.3d at 821. Accordingly, Judge Jones did
not abuse his discretion, or deprive the Plaintiffs of due process, in denying the
Plaintiffs’ contempt motion without issuing a show cause order.
IV. CONCLUSION
Because the district court did not abuse its discretion in denying the
Plaintiffs’ motions to recuse and for contempt, we affirm.7
AFFIRMED.

7The M&B Attorneys’ request for sanctions against the Plaintiffs, made only in passing in
their merits brief and not as a separate motion, is denied. See Fed. R. App. P.38 (providing that,
upon a motion, this Court may award just damages and costs to the appellee if we determine that
the appeal is frivolous); 11th Cir. R. 38-1 & I.O.P. (providing that motions for damages and costs
pursuant to Rule 38 should be filed separately, not contained in an appellee’s brief); Sapuppo v.
Allstate Floridian Tns. Co.. 739 F.3d 678, 682 (11th Cir. 2014) (explaining that a party abandons
an issue by referencing it only in passing or burying it within properly presented arguments).
17
IS a

Appendix B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

No. 1:10-CV-1641
GEORGE MATTHEWS, NINA MATTTHEWS Plaintiffs
v.
STATE FARM FIRE & CASUALTY COMPANY Defendant
Andrew J. Becker
David Jason Merbaum Respondents
Filed November 12, 2019

ORDER
Before: Steve C. Jones
2

h/yi .sf ■:

‘ ):-r .

K

'

i

i;p,

, i ■■ n

~i

I •’ 3flP

■

O'

■'

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

GEORGE MATTHEWS AND NINA
MATTHEWS,
CIVIL ACTION FILE NO.
Plaintiffs,

1:10-CV-1641-SCJ

v.
STATE FARM FIRE AND CASUALTY
COMPANY,
Defendant.

ORDER
This matter appears before the Court on the Motion for Recusal (Doc. No.
[112]) and Motion for Contempt filed by Plaintiffs George Matthews and Nina
Matthews against their former attorneys David Merbaum and Andrew Becker
(Doc. No. [111]).
The Court will address the pending motions in turn.

■ M)-cv-01641 -SCJ Document 3 36 Rled 11/12/14 Pane 2 or it:

I. Motion for Recusal
In their motion for recusal. Plaintiffs state that they “believe that recusal is
warranted due to the fact that [the undersigned judge] poses a threat to an
objective ruling" on their motion for contempt proceedings. Doc. No. [112], p. 5.
Plaintiffs base their motion on a grievance (extrajudicial document) that they
filed against the undersigned judge with the Office of the Attorney General. Id
at p. 6. Plaintiffs also attached a January 2018 letter addressed to the Court in
which they state: "[w]e believe you have intentionally harmed us by writing a
false order for State Farm after being presented with facts that State Farm had
presented fraud to the court."

Doc. No. [112], p. 12.

Plaintiffs also attach

affidavits in support of their motion. Doc. Nos. [112-1 and 112-2],
After review, the motion for recusal is DENIED as the Eleventh Circuit has
held that " [t]he mere filing of a complaint of judicial misconduct is not grounds
for recusal.... [Furthermore], it would be detrimental to the judicial system if a
judge had to disqualify himself anytime someone filed a complaint about his
conduct. A party would only have to file a complaint to get a different judge."
In re Evergreen Sec., Ltd., 570 F.3d 1257, 1265 (11th Cir. 2009).

The Eleventh

Circuit has also held that "[a] party's complaints regarding 'judicial rulings. . .
2

2r

'.asp I.' 10-cv-Ol641.-SCJ Document 116 Filed 11/12/19 Page 3 of 10

are not sufficient to require recusal/" Brown v. U.S. Patent & Trademark Office,
226 F. App'x 866,869 (11th Cir. 2007) (citing Liteky v. United States, 510 U.S. 540,
556 (1994)). Furthermore, the Court approaches each of its cases with integrity,
professionalism, and impartiality. This case is no different.
II. Motion for Contempt
In their contempt motion, Plaintiffs request that their former attorneys,
David Merbaum and Andrew Becker (hereinafter "Respondents"),1 be held in
contempt and that this Court "reprimand the attorneys for their false attempt to
collect money never owed to them and their years of harassment for a false
claim." Doc. No. [Ill], p. 11. Plaintiffs also recommend that this Court "consider
filing for disbarment of their [former attorneys'] law licenses for the years of
deceit and false statements made before the courts and to the [Plaintiffs]." Ick
In their opposition brief, Respondents state that "[t]here is no basis for the
Court to conclude that Respondents are in contempt because there is no order
adjudicating the amount owed to Respondents for services rendered." Doc. No.

Attorneys David Merbaum and Andrew Becker were never parties to this case.
Nevertheless, because the pending motion involves an order of the court issued in this
case, the Court will consider the motion and the attorneys will be referred to as
respondents.
3

■rase l.TO-cv-01641-SCJ Document 116 Filed 11/12/19 Page 4 of 10

[115], p. 1. Respondents state that "[t]he evidence presented and the record
before this Court reflects that the only order issued by this Court was to attempt
reconciliation/7 Doc. No. [115], p. 9. Respondents state that "Plaintiffs and
Respondents reconciled, executed [a contract] [a]mendment, and withdrew the
motions to withdraw that were pending at the time of the Hearing.77

Id.

Respondents also state that "the same issue has been previously litigated
between the same parties, the doctrines of res judicata and collateral estoppel
apply to prevent Matthews from litigating the issue yet again." IcL at p. 11.
Respondents also state that they "respectfully request that the Motion be denied
and that this Court enter an award of attorney fees for abusive litigation ... as a
deterrent to . . . cease filing . . . wasteful, self-serving motions which are only
intended as a delaying tactic to avoid paying [an already final state court
judgment] and which frivolous actions waste precious judicial resources on
spurious, nonsensical arguments." Doc. No. [115], p. 12.
"Courts have inherent power to enforce compliance with their lawful
orders through civil contempt.77 Citronelle-Mobile Gathering, Inc, v. Watkins,
943 F.2d 1297, 1301 (11th Cir. 1991). To prevail on a civil contempt motion, a
plaintiff must demonstrate, by clear and convincing evidence, that "1) the
4

Ak>

Case l:10-cv-01641-SCJ Document 116 Filed 11/12/19 Page 5 of 10

allegedly violated order was valid and lawful; 2) the order was clear, definite and
unambiguous; and 3) the alleged violator had the ability to comply with the
order." McGregor v. Chierico, 206 F.3d 1378, 1383 (11th Cir. 2000) (internal
quotations omitted). If Plaintiff makes this prima facie showing, the burden of
production

shifts

to

Defendant

to

produce

evidence

explaining

its

noncompliance. Watkins, 943 F.2d at 1301.
The order at issue was pronounced by the Flonorable Willis B. Hunt at an
October 25, 2010 hearing on the Respondents' October 6, 2010 motions to
withdraw as counsel of record (Doc. Nos. [25], [26]) for the Plaintiffs. Doc. No.
[105],2 At the conclusion of the hearing, in a verbal order, Judge Hunt stated:
3

THE COURT:

YOU MAY HAVE A SEAT OVER THERE.

HERE IS WHAT I AM GOING TO DO.
5

AFTER WHAT I HAVE

HEARD THIS MORNING, I AM GOING TO TRY TO MEDIATE THE DISPUTE

2 On March 7,2011, this case was reassigned from Judge Hunt to the undersigned judge.
See Doc. No. [73].
5

Case l:10-cv-01641-SCJ Document 116 Filed 11/12/19 Page 6 of 10

l

BETWEEN THE TWO OF YOU, THE TWO SIDES. FIRST LET ME SAY

2

THAT, TO THE MATTHEWS'S, AT THIS POINT IN A CIVIL CASE --

3

IT'S NOT A CRIMINAL CASE. IT WOULD BE DIFFERENT IF IT WERE

4

A CRIMINAL CASE - I HAVE A HARD TIME REFUSING THEIR DESIRE

5

TO GET OUT. YOU KNOW, IF WE WERE FURTHER ALONG IN THE CASE

6

WHERE EVERYTHING WAS READY FOR TRIAL, THAT WOULD BE ANOTHER

7

MATTER. BUT AT THIS POINT IN TIME, FRANKLY, IT WOULD BE

8

DIFFICULT FOR THE COURT TO HOLD THEM IN, BOTH AT THEIR

9

EXPENSE AND AT YOUR EXPENSE UNDER THE CIRCUMSTANCES.

10

BUT I DO FEEL THAT NOW THAT Y’ALL ARE SITTING HERE

11

TOGETHER IN THIS COURTROOM, AND FROM WHAT I HAVE HEARD

12

TODAY, I DON'T SEE WHY YOU CAN'T MAKE ONE MORE STAB AT

13

TRYING TO GET TOGETHER ON WHAT NEEDS TO BE DONE IN THIS

14

CASE. I AM GOING TO RECESS NOW BECAUSE I'VE GOT ANOTHER

15

MATTER TO ATTEND TO AT 11:30, BUT WHAT I WANT YOU TO DO, I

16

WANT YOU TO DO ONE OF TWO THINGS. I WANT YOU TO EITHER. TALK

17

WITH EACH OTHER RIGHT HERE IN THE COURTROOM THIS MORNING AND

18

SEE IF THERE IS ANY WAY YOU CAN RECONCILE THE DIFFERENCES.

19

AND TO DO THAT, MS. MATTHEWS, YOU ARE GOING TO HAVE TO BACK

20

OFF OF SOME OF THE INSISTENCE ON YOUR DEMANDS, LISTEN TO

21.

YOUR LAWYERS, AND BE WILLING TO GO ALONG WITH THEIR VIEW OF

22

HOW IT SHOULD PROCEED, BECAUSE THAT IS WHY THEY ARE ENGAGED.

23

AND IT IS VERY DIFFICULT -- I MEAN, I MYSELF WAS A

24

LAWYER ONCE. IT’S VERY HARD TO HAVE A CLIENT THAT KEEPS

25

TELLING YOU WHAT YOU OUGHT TO DO IN THE CASE. I MEAN, YOU

‘ /

i

Case l:10-cv-01641-SCJ Document 116 Filed 11/12/19 Page 7 of 10

i

KNOW, YOUR RESPONSE TO THAT IS, HEY, GET SOMEBODY ELSE, OR

2

DO IT YOURSELF IF, YOU KNOW — IF YOU HAVE TO ANSWER ALL OF

3

THESE QUESTIONS.

4

SO YOU HAVE TO BACK OFF SOME.

SO, AT THE SAME TIME, IT SOUNDS LIKE TO ME THAT

5

THE LAW FIRM IS DOING GOOD WORK, IS WELL-QUALIFIED TO DO

6

THIS KIND OF WORK.

7

KNOW, YOU NEED TO AGREE ON CONTINGENCY, WORK THAT OUT, AND

8

SEE IF YOU CAN’T TAKE A FEW DEPOSITIONS AND AT LEAST HAVE

9

MEDIATION AND SEE WHERE YOU ARE THERE.

10

AND IT'S AT A POINT WHERE IF THEY -- YOU

OR, IF YOU DON'T WANT TO MEET IN THE COURTROOM

11

TODAY, THEN WHAT I WANT YOU TO AGREE IS, SO THAT THE

12

MATTHEWS’S COME BY YOUR OFFICE BEFORE THE END OF THIS WEEK,

13

GIVE THEM AT LEAST AN HOUR'S TIME, TALK TO THEM, AND IF AT

14

THE END OF THAT TIME YOU CANNOT GET OUT, LET US KNOW.

15

WILL THEN RELIEVE THE LAWYERS OF THEIR RESPONSIBILITY ON THE

16

CONDITIONS SET FORTH IN THEIR LETTER, AND THAT IS THAT THERE

17

BE NO ADDITIONAL — ASIDE FROM SOME OUT-OF-POCKET COSTS --

18

THERE WOULD BE NO ADDITIONAL CHARGE TO THE PLAINTIFFS.

19

THEN THEY CAN GO AND GET A LAWYER MAYBE WHO WILL AGREE TO

20

TAKE IT ON A CONTINGENCY AND MOVE FORWARD.

21

I

AND

BUT I DO WANT YOU TO HAVE THIS MEETING BETWEEN THE

22

PARTIES TO SEE IF THERE ISN'T SOME WAY YOU CAN GET ALONG.

23

IT SOUNDS LIKE TO ME, FROM HEARING MR. BECKER, THAT AN AWFUL

24

LOT HAS BEEN DONE IN THIS CASE, AND IS READY TO BE DONE,

25

THAT REALLY MEETS YOUR DEMANDS.

IT IS JUST THAT THAT IS NOT

7

7b

Case l:10-cv-01641-SCJ Document 116 Filed 11/12/19 Page 8 of 10

i
2

AN UNDERSTANDING BETWEEN THE TWO SIDES HERE AS TO THAT FACT.
ANYWAY, THAT IS WHERE I AM GOING TO LEAVE IT.

I

3

APPRECIATE IT.

4

THE END OF THE WEEK TO SEE WHETHER THERE IS ANY CHANCE THAT

5

Y'ALL CAN GET BACK TOGETHER OR NOT.

6

AM SORRY YOU HAVE HAD THIS MUCH DIFFICULTY, BUT I APPRECIATE

7

YOU COMING THIS MORNING.

AND I WILL LOOK TO HEAR FROM MR. MERBAUM AT

THANK YOU VERY MUCH.

I

WE ARE IN RECESS.

8

(END OF HEARING AT 11:10 A.M.)

o

+

*

Doc. No. [105], pp. 39-42.
After the hearing, on November 5, 2010, Respondents withdrew their
motions to withdraw as counsel of record. Doc. Nos. [34], [115-7], For purposes
of the pending contempt motion, Respondents filed a document showing that the
Plaintiffs entered into an amended attorney client agreement on October 28,2010
(three days after the hearing with Judge Hunt).

Doc. No. [115-6], p. 1. This

amendment provided inter alia for payment of $7,500 for all work performed up
to October 27, 2010 and an hourly rate of $225 for all work performed after
October 27, 2010. Id
After review, the Court finds that there is no evidence that shows that the
Respondents have not complied with Judge Hunt's order, which was for the
8

Case l:10-cv-01641-SCJ Document 116 Filed 11/12/19 Page 9 of 10

parties to essentially make an attempt at reconciliation. The evidence of the
Respondents' withdrawal of their motions to withdraw as attorneys of record
and the amendment of the attorney-client agreement shows that the parties did
reconcile. Judge Hunt's order also contained a contingency—in that if there was
no reconciliation, Judge Hunt would relieve the attorneys of their responsibility
to represent Plaintiffs with no additional charge to the Plaintiffs (other than some
out-of-pocket costs). Because the record shows that there was a reconciliation,
the latter part of Judge Hunt's order never became effective. The language that
Judge Hunt utilized, i.e., "I will then..." also indicates that Judge Hunt intended
to take additional action to make the contingency part of his order effective. The
facts that the reconciliation fell apart and there was a later motion to withdraw
(Doc. No. [55]) filed December 23,2010 and order of the Court on January 5,2011
(Doc. No. [57]) are not relevant as the later motion to withdraw and order were
not within the contingency of Judge Hunt's October 25,2010 verbal ruling.
Accordingly, Plaintiffs' motion for contempt (Doc. No. [Ill]) is DENIED.

9

AL
- (^

CONCLUSION
Plaintiffs' Motion for Recusal (Doc. No. [112]) and Motion for Contempt
(Doc. No. [Ill]) are DENIED.

Respondents' request for attorneys' fees is

DENIED; however, Plaintiffs are cautioned and warned that any future filings
that are without a plausible legal basis in the case sub judice (that has been closed
since 2012) may be subject to monetary and other sanctions deemed appropriate
by this Court and applicable rules/law.
IT IS SO ORDERED this I

day of November, 2019.

C.
HONORABLE STE^ C. JONES
UNITED STATES DISTRICT JUDGE

10

iOb

Appendix C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

No. 1:10-CV-1641
GEORGE MATTHEWS, NINA MATTTHEWS Plaintiffs
v.
STATE FARM FIRE & CASUALTY COMPANY Defendant

Filed February 3, 2012

ORDER SUMMARY JUDGMENT
Before: Steve C. Jones

3

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 1 of 33

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
GEORGE MATTHEWS
AND NINA MATTHEWS,
CIVIL ACTION NO.
1:10-CV-1641-SCJ

Plaintiffs,
v.
STATE FARM FIRE AND
CASUALTY COMPANY,
Defendant.
ORDER

This matter comes before the Court on the Defendant's Motion for Summary
Judgment [Doc. No. 86].
I. Factual Background
On April 13,2010, Plaintiffs, George and Nina Matthews, filed a Complaint
for Breach of Contract, Bad Faith, and Attorney's fees in the Superior Court of Cobb
County, Georgia against Defendant, State Farm Fire and Casualty Company
(hereinafter "Defendant" or "State Farm"). Doc. No. 1-1. On May 27, 2010,
Defendant removed this case to the Northern District of Georgia under the diversity
and removal jurisdictional provisions of 28 U.S.C. § 1332 and 28 U.S.C. § 1441.
In their Complaint, Plaintiffs indicate that they were insured by a State Farm
1

U

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 2 of 33

Homeowner's Insurance Policy which was in full force and effect on May 1, 2009.
Plaintiffs state that on May 1,2009, two large oak trees located on the property fell
upon their home causing damage. Doc. No. 1-1,4.
The Plaintiffs filed an insurance claim with State Farm and it appears that
neither party is contesting that May 1,2009 incident was a covered loss. Issues arose
between the parties as to the nature of the damage and the amount of the loss,
resulting in the Plaintiffs filing this civil action.
Three engineers have inspected the Plaintiffs' home - (1) Philip Chapski,
retained by State Farm; (2) Bill Creeden retained by Plaintiffs; and (3) Pete Craig,
who came into the matter after the Plaintiffs contacted the Georgia Office of
Insurance and Safety Fire Commissioner (hereinafter "DOI").
Mr. Chapski's report was prepared on June 10,2009. Doc. No. 1-1,5, Compl.
121. Plaintiffs notified State Farm that they disputed and rejected Chapski's report
because Mr. Chapski's firm Cerny & Ivey Engineers, Inc., was not in good standing
with the Georgia Secretary of State; Mr. Chapski's license had lapsed; and the report
failed to acknowledge clear and obvious damage to the property. Doc. No. 1-1, 5,
Compl. 22.
Mr. Bill Creeden's engineering report was submitted to the Plaintiffs on June
22,2009. Doc. No. 86-6,1. Mr. Creeden's original report included an estimate for the

2

C-

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 3 of 33

cost to make repairs to the home for the tree related damage, which totaled $9,400.
Doc. No. 86-6, 3. At his deposition, Mr. Creeden testified that he was asked to
prepare a supplemental report, providing more details on the repairs. Doc. No. 865,6, Creeden depo., p. 23, lines 20-22. Mr. Creeden also indicated in an errata sheet
to his deposition that the Matthews requested that he remove the costs opinion in
his supplemental report. Doc. No. 86-5, 14. Prior to writing the supplemental
report, the Matthews sent Mr. Creeden a list of items that they wished to have
included in the report. Id. at depo. p. 27 - 28 and Doc. No. 86-8,1-2. On July 11,
2009, Creeden forwarded the Plaintiffs his supplemental report, which detailed the
repairs outlined in his initial report. However, Mr. Creeden did not include all of
the items on the list requested by the Matthews. In his correspondence to Mrs.
Matthews, Mr. Creeden stated: "[a]s we discussed before, some items on your list
I cannot associate to the tree strike without losing credibility." Doc. No. 86-8,5. As
shown in the affidavit of State Farm's adjuster, Mr. Van Westmoreland, on June 25,
2009, the Plaintiffs submitted to State Farm the report prepared by Bill Creeden that
did not contain an estimate for the cost of the repairs outlined in Creeden's report.
Doc. No. 86-2, Tf 9. As further stated by Mr. Westmoreland, upon receipt of the
Revised Creeden Report and Mr. Chapski's report, State Farm agreed to adjust the
claim based upon the scope of work described by Mr. Creeden in his supplemental

3

3^

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 4 of 33

report as necessary to repair the damages associated with the tree striking the house.
Id. at f 11. State Farm's adjuster (Mr. Westmoreland) prepared an estimate dated
June 29, 2009, which calculated the cost to make the repairs recommended in the
Creeden report to be $14,702.01. This figure included the cost of the tree removal.
Doc. No. 86-2,4,111.
The third engineer, Mr. Pete Craig issued his report to Carol Clark of the
Department of Insurance based upon his inspection of the house. Craig Aff., Doc.
No. 86-14, Tj 7. Mr. Craig outlined the scope of the damages that were in his
professional opinion associated with the tree impact to the house. Id, at

8. Mr.

Craig concluded that there was no structural damage to the house that was a result
of the tree impact at the property, with the exception of possible minor damage to
the twostory rear wall of the great room of the home. Id.1
State Farm prepared estimates based on the Creeden engineering report and
on two instances in July 2009, State Farm sent the Plaintiffs a check in the amount
lrThe Plaintiffs also raise concerns regarding Mr. Craig and allege conflict of
interest between State Farm and the DOI, due to evidence in the record showing that
the DOI deemed it proper for an independent engineer to review the property;
however, State Farm's counsel was the one who originally contacted Mr. Craig to serve
in this capacity and State Farm actually drafted correspondence and findings for the
DOI to send to the Plaintiffs. Craig Depo., Doc. No. 88-5,46 - 47, depo. p. 14 -15, lines 2
- 8; Def. Counsel, correspondence, Doc. No. 88-9,6-7; Oni depo., Doc. No. 88-7,19 -21,
depo. p. 42, lines 14-18 and p. 44, lines 22-25. It is important to note that this Court does
not regulate Georgia's Office of Insurance and Safety ("DOI"); however, this Court will
address Plaintiffs' arguments in the context of the bad faith analysis at the conclusion of
this order.
4

4.

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 5 of 33

of $11,002.01. Westmoreland depo., Doc. No. 86-2,4, f 12. This amount represented
the net difference between Westmoreland's estimate ($14,702.01) and the $1,000.00
deductible and $2,700.00 advance issued to Plaintiffs by State Farm following the
loss to cover the cost of the tree removal. IcL State Farm also paid the Plaintiffs
$1,979.00 to cover the damage to their personal property associated with the tree
collapse and to reimburse them for the cost of Mr. Creeden's services. Id.
Plaintiffs obtained estimates for repairs at their home from Jerry Lockhart of
LMS Construction and Mr. James Michael McCune of AAA Restoration. The
Lockhart estimate totaled $184,018.62 and the AAA Restoration estimate totaled
$187,030.69. Doc. No. 88-9,32 and Doc. No. 88-10,22. Mr. Lockhart did not appear
for his deposition and accordingly, there is no direct testimony as to his training and
experience and/or what he based his estimate upon.2 Mr. McCune of AAA
Restoration appeared for deposition on April 6, 2011. Doc. No. 88-9, 41. Mr.
McCune testified that he has not been retained as an expert by the Plaintiffs. Doc.
No. 88-9, McCune depo., pp. 27-28 and p. 64. Mr. McCune testified that he does not
have an engineering degree and does not hold himself out as an engineering
professional. Id. at depo. p. 7. Mr. McCune also testified that the AAA Restoration

2On page of the Lockhart estimate, there is a note which states: "My finding was
based on damages done to house/ also I cross reference findings by AAA Restoration &
Engineer Report and find their findings accurate ...." Doc. No. 88-10,22.
5

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 6 of 33

estimate was based on "what Mr. and Mrs. Matthews wanted to have included in
the estimate" and that the estimate was not limited to repairs that were necessary
as a result of the tree hitting the Plaintiffs' home. Id. at depo. p 17, lines 20-21 and
p. 19. When asked to prepare a revised estimate based upon Mr. Craig's engineering
report, Mr. McCune refused to do so and has had no further involvement in this
matter. McCune depo., Doc. No. 86-9,8, depo. p. 26, line 6 and p. 27, lines 2-6.
In addition to the May 2009 report, two water damage reports were made by
Plaintiffs to State Farm in September of 2009 and March 2010.
On May 3, 2011, State Farm filed a Motion for Summary Judgment. State
Farm's motion is based upon the following asserted grounds: (1) Plaintiffs' breach
of contract claims against State Farm fail as a matter of law; and (2) Plaintiffs' claim
for bad faith penalties fails as a matter of law.
The Plaintiffs filed a Response and Brief in Opposition to State Farm's Motion
for Summary Judgment on May 26,2011.3
Pursuant to Local Rule 56.1, State Farm has filed a Statement of Material Facts
to which the Plaintiffs filed disputes as to certain paragraphs and failed to admit

3The Court notes that Plaintiffs' response exceeds the twenty-five page limit of
Local Rule 7.1D. The Court cautions the Plaintiffs as to the page limitations. See L.R.
7.1(D) ("Absent prior permission of the court, briefs filed in support of a motion or in
response to a motion are limited in length to twenty-five (25) pages."). In the absence of
objection, the Court will exercise its discretion to consider Plaintiffs' response in its
entirety.
6

t

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 7 of 33

and/or object to other paragraphs. In accordance with Local Rule 56.1(B)(2), in the
absence of objection from Plaintiffs, the Court has deemed said unobjected to
paragraphs admitted for purposes of the undisputed facts.
II. Motion for Summary Judgment
A. Legal Standard
Federal Rule of Civil Procedure 56(a) provides "[t]he court shall grant
summary judgment if the movant shows that there is no genuine dispute as to any
material fact and the movement is entitled to judgment as a matter of law."4
A factual dispute is genuine if the evidence would allow a reasonable jury to
find for the nonmoving party. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). A fact is "material" if it is "a legal element of the claim under the applicable
substantive law which might affect the outcome of the case." Allen v. Tyson Foods,
Inc.. 121 F.3d 642, 646 (11th Cir. 1997).
4On December 1, 2010, an amended version of Rule 56 of the Federal Rules of
Civil Procedure became effective. The amendments to Rule 56 "are intended to
improve the procedures for presenting and deciding summary-judgment motions" and
"are not intended to change the summary-judgment standard or burdens." Committee
on Rules of Practice and Procedure, Report of the Judicial Conference, p. 14 (Sept. 2009).
Farmers Ins. Exch. v. RNK, Inc., 632 F.3d 777, 782 n.4 (1st Cir. 2011). "[Bjecause the
summary judgment standard remains the same, the amendments 'will not affect
continuing development of the decisional law construing and applying1 the standard
now articulated in Rule 56(a). Adv. Comm. Notes to Fed. R. Civ. P. 56 (2010 Amends.).
Accordingly, while the Court is bound to apply the new version of Rule 56, the
undersigned will, where appropriate, continue to cite to decisional law construing and
applying prior versions of the Rule." Murray v. Ingram, No. 3:10-CV-348-MEF, 2011
WL 671604, at *2 (M.D. Ala. Feb. 3,2011).
7

1-

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 8 of 33

The moving party bears the initial burden of showing the court, by reference
to materials in the record, that there is no genuine dispute as to any material fact that
should be decided at trial. Hickson Corp. v. N. Crossarm Co., 357 F.3d 1256,1260
(11th Cir. 2004) (citing Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986)). The
moving party's burden is discharged merely by "'showing' — that is, pointing out
to the district court — that there is an absence of evidence to support [an essential
element of] the nonmoving party's case." Celotex Corp. v. Catrett, 477 U.S. 317,325
(1986). In determining whether the moving party has met this burden, the district
court must view the evidence and all factual inferences in the light most favorable
to the party opposing the motion. Johnson v. Clifton, 74 F.3d 1087,1090 (11th Cir.
1996). Once the moving party has adequately supported its motion, the non-movant
then has the burden of showing that summary judgment is improper by coming
forward with specific facts showing a genuine dispute. Matsushita Elec. Indus. Co.
v. Zenith Radio Corp., 475 U.S. 574, 587 (1986). All reasonable doubts should be
resolved in the favor of the non-movant. Fitzpatrick v. City of Atlanta, 2 F.3d 1112,
1115 (11th Cir. 1993). When the record as a whole could not lead a rational trier of
fact to find for the nonmoving party, there is no "genuine [dispute] for trial." Id.
(citations omitted).

8

8-

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 9 of 33

B. Breach of contract
Defendant, State Farm, argues that summary judgment is proper because
Plaintiffs' breach of contract claims against State Farm fail as a matter of law.
Defendant argues that Plaintiffs cannot prove that State Farm breached the
insurance policy at issue. Doc. No. 86-1, 21.
Under Georgia law, "[i]n an action to collect on an insurance policy, the
insured must show that the occurrence was within the type of risk insured against
to make a prima facie case." Pennsylvania Millers Mut. Ins. Co. v. Heule, 140 Ga.
App. 851, 852, 232 S.E.2d 267, 268 (1976). "To recover in a suit on a contract, the
complaining party must establish both a breach of the contract and resulting
damages." Graphics Products Distributors, Inc, v. MPL Leasing Corp., 170 Ga. App.
555,555,317 S.E.2d 623,624 (1984). "A contract is breached by a party to it who is
bound by its provisions to perform some act toward its consummation and who,
without legal excuse on his part and through no fault of the opposite party, declines
to do so." CCE Federal Credit Union v. Chesser. 150 Ga. App. 328,330,258 S.E.2d
2,4 (1979).
In Count One of their Complaint, Plaintiffs allege that despite the event of loss
that was covered under the policy, Defendant State Farm has failed and refused to
properly and completely perform its obligations to Plaintiffs under the insurance

9

i—

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 10 of 33

policy issued to Plaintiffs. Doc. No. 1-1,9. The Court notes that Plaintiffs do not cite
to a specific contractual term of the insurance policy to which they allege breach
and/or failure to perform obligation. The Court further notes that there is only a
partially legible copy of the insurance policy at issue in the record. The lack of
citation to a specific contractual term and the absence of a fully legible insurance
policy in the record hinders the summary judgment review process as to the Court's
ability to know the exact elements upon which Plaintiffs seek recovery.5 The Court
recognizes that the burden is the Plaintiffs to this regard. See Newton's Crest
Homeowners' Ass'n v. Camp, 306 Ga. App. 207,213, 702 S.E.2d 41,47 (2010) ("the
party asserting the existence of a contract has the burden of proving its existence and
its terms.").6

5Plaintiffs state that they attached a "true and accurate" copy of the insurance
policy to the Complaint as Exhibit 1. A review of Exhibit 1 (at Doc. No. 1-1,11 - 25)
shows that it is only partially legible. Several pages are blurred. Cf. Pennsylvania
Millers Mut. Ins. Co. v. Davis. 186 Ga. App. 301,301, 367 S.E.2d 91,92 (1988)
(considering fact in the appellate court context that insurance policy was not admitted
into the record and further considering the merits of the arguments in the policy's
absence, but recognizing that "[t]he burden is upon the party alleging error to show it
affirmatively by the record."). The Court further notes that there is a declarations page
found at Doc. No. 1-1,116 and an amendatory endorsement in the record at Doc. No. 11,118 -123. Both of these documents are legible.
6The Court also recognizes that Plaintiffs are pro se. The Eleventh Circuit has
held that a party's pro se status does not give a court "license to serve as de facto
counsel for a party, or to rewrite an otherwise deficient pleading in order to sustain an
action." Alford v. Consol. Gov't of Columbus, Ga., 438 F. App'x 837,839 (11th Cir.
2011).
10

|0-c-

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 11 of 33

The Court notes that in their response to State Farm's motion for summary
judgment, Plaintiffs raise additional arguments regarding their allegations of breach
as follows. Plaintiffs argue that summary judgment is not appropriate because: (1)
"State Farm admittedly [has] not repaired damage on claims filed with them for
which Plaintiffs were covered and met their contractual obligation"; (2) "State Farm
has underpaid Plaintiff[s] for repair amounts owed and continues to evade
appropriate payment to repair damaged property where liability has [sic] of damage
is reasonably clear"; (3) State Farm has "refused to work with any contractor in
'good faith' to reconcile any differences that may exist between estimates"; and (4)
State Farm breached their contract by not paying for the September 21,2009 covered
loss after a report of a leak in Plaintiffs' family room. Doc. No. 88-1,21,24, and 28.
The Court will use these allegations of breach in performing its analysis.
1. Alleged failure to repair
As stated above, the Plaintiffs argue that "State Farm admittedly [has] not
repaired damage on claims filed with them for which Plaintiffs were covered and
met their contractual obligation." Doc. No. 88-1, 24. The Court concludes after
review of the legible portions of the insurance policy that there is nothing in the
record to show that State Farm has undertaken a duty to repair the Plaintiffs'
property (as opposed to a duty to provide payment to cover loss). Accordingly,

11

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 12 of 33

summary judgment is warranted as to this allegation of breach, as it appears that the
issue between the parties involves whether there has been proper insurance
coverage of the loss through monetary amounts.
2. Alleged underpayment for repair amounts
As stated above, Plaintiffs further argue that "State Farm has underpaid
Plaintiff [s] for repair amounts owed and continues to evade appropriate payment
to repair damaged property where liability has [sic] of damage is reasonably clear."
Doc. No. 88-1,24.
In its motion for summary judgment, State Farm argues that it "acted at all
times in accordance with the terms and conditions of the policy" and that it issued
"more than adequate" payment to cover the damages that resulted from the May 1,
•

2009 loss. Doc. No. 86-1,18. State Farm agues that Plaintiffs have no admissible
evidence to support their position that State Farm's previous payments to them were
not sufficient to cover the repairs necessary as a result of the May 1,2009 tree loss.
Doc. No. 86-1,21. State Farm also argues that "Plaintiffs cannot prove that the May
1,2009 tree loss at their property caused damages in any amount in excess of what
State Farm has paid." Doc. No. 86-1, 20. State Farm further argues that "Plaintiffs
cannot... prove that the scope of damage caused by the tree loss was greater than
the scope previously determined by the three engineers [Chapski, Creeden, and

12

\tc

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 13 of 33

Craig] who inspected the house." Doc. No. 86-1, 20. State Farm argues that the
majority of the damages alleged in the Complaint are not associated with the May
1, 2009 tree loss. State Farm argues that Plaintiffs have no expert who will testify
that the damages caused by the tree exceed the scope of the damages outlined in the
Revised Creeden report, upon which State Farm based its payments. Doc. No. 86-1,
21.
After review of the record, the Court finds that State Farm has met its initial
burden of "'showing' — that is, pointing out to the district court — that there is an
absence of evidence to support [an essential element of] the nonmoving party's
case." Celotex Corp. v. Catrett, 477 U.S. 317, 325 (1986). This burden was met
through State Farm's showing of an absence of evidence from an expert who will
testify that the damages caused by the tree exceeded the scope of the damages
outlined in the Revised Creeden report, upon which State Farm based its payments.7
As stated above, once the moving party has adequately supported its motion, the
non-movant then has the burden of showing that summary judgment is improper
by coming forward with specific facts showing a genuine dispute. Matsushita Elec.

7The Court notes that it is reflected on the minute entry (at Doc. No. 82) for the
April 1,2011 hearing on Defendant's motion for sanctions before this Court that
Plaintiffs designated Jerry Lockhart and Mike McCune as their experts. The Plaintiffs
now deny designating these two individuals as their experts. See Pis. Response, Doc.
No. 88-2,8,116.
13

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 14 of 33

Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,587 (1986).
In response to State Farm's motion, Plaintiffs argue that expert testimony is
not needed because the case concerns matters of common knowledge. Doc. No. 881,17. The Plaintiffs cite the Wisconsin case of Racine Cntv v. Oracular Milwaukee,
Inc., 317 Wis. 2d 790, 767 N.W.2d 280 (2009) in support of their argument.
The Court first notes that the Wisconsin case cited by the Plaintiffs is not
binding upon this Court. In general, absent an express contractual provision to the
contrary, "[a] federal court in a diversity case is required to apply the laws,
including principles of conflict of laws, of the state in which the federal court sits."
O'Neal v. Kennamer, 958 F.2d 1044,1046 (11th Cir. 1992); see also Cook v. Trinity
Universal Ins. Co. of Kansas, 297 F. App'x 911, 914 (11th Cir. 2008) ("'Under Erie
Railroad v. Tompkins, 304 U.S. 64,58 S. Ct. 817,82 L. Ed. 1188] (1938), a federal court
in a diversity action must apply the controlling substantive law of the state.' 'The
construction of insurance contracts is governed by substantive state law.'") (citations
omitted). This Court sits in the Northern District of Georgia. Neither party has cited
an express contractual provision prohibiting the application of Georgia law and/ or
raised a conflict of law issue. Accordingly, the Court will apply Georgia contract
law to the contract at issue.
The Court further finds that even in considering the Wisconsin case, the Court

14

,\^c^

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 15 of 33

is unable to uphold Plaintiffs' argument. In Racine Cntv v. Oracular Milwaukee,
Inc., 317 Wis. 2d 790, 767 N.W.2d 280 (Wis. App. 2009), the county appealed from
a circuit court's decision that the computer consulting contract at issue was a
contract for professional services, requiring the county to prove professional
negligence and also holding that expert testimony was required as a matter of law.
In reversing the circuit court, the appellate court concluded that computer
consultants are not professionals and that the agreement between the county and the
computer consultants was not a contract for professional services. The appellate
court further held that" [e] Xpert testimony is only required when the issue is esoteric
and complex ...." Id at 812. The appellate court also stated a general rule that
"expert testimony will generally be required to satisfy this standard of care as to
those matters which fall outside the area of common knowledge and lay
comprehension." Id. at 811.
The Court agrees, as stated by Defendant State Farm, that" [determining the
cause of structural damage at a dwelling is a complex and esoteric matter, and a
necessary step to determining what scope of damage is covered by the insurance
contract, such that a professional engineer's opinion testimony is appropriate." Doc.
No. 89,11. See also Coursev Bldg. Assoc, v. Baker, 165 Ga. App. 521,523,301 S.E.2d
688,690 (1983) ("Moreover, testimony as to causation is a proper matter for expert

15

X^

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 16 of 33

testimony."); cf. Newman v. Travelers Ins. Co., 143 Ga. App. 757, 240 S.E.2d 139
(1977) (indicating that expert's testimony was relevant to inquiry of whether damage
to roof had been caused by tree or by defective construction).
In addition to Georgia law, this Court is bound by the Federal Rules of
Evidence. Rule 701 of the Federal Rules of Evidence provides that "[i]f the witness
is not testifying as an expert (i.e., a lay witness), the witness' testimony in the form
of opinions or inferences is limited to those opinions or inferences which are (a)
rationally based on the perception of the witness, (b) helpful to a clear
understanding of the witness' testimony or the determination of a fact in issue, and
(c) not based on scientific, technical, or other specialized knowledge within the scope
of Rule 702." "[L]ay testimony 'results from a process of reasoning familiar in
everyday life/ while expert testimony 'results from a process of reasoning which can
be mastered only by specialists in the field.'" Fed. R. Evid. 701 Adv. Comm. Notes
to Fed. R. Civ. P. 701 (2000Amends.). According to Rule 702 of the Federal Rules of
Evidence, only a qualified expert witness may offer testimony related to scientific,
technical or other specialized knowledge.
The Court finds that testimony regarding inquiries into allegations of
structural damage at a home falls within specialized knowledge and is the proper
subject of expert testimony - to which Plaintiffs have failed to designate an expert.

16

W

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 17 of 33

To the extent that Plaintiffs appear to argue that they can identify an expert
at a later date, the Court finds that now that discovery has closed and in the absence
of a showing of substantial justification and/or no harm to their opposing party,
such late designation is not permitted. More specifically, Federal Rule of Civil
Procedure 26.2 and Local Rule 26.2 provide timing sequences for the proper
designation of experts prior to the close of discovery. These rules further provide
that the result of failure to designate an expert in accordance with the federal and
local rules means that the failing party "shall not be permitted to offer the testimony
of the party's expert, unless expressly authorized by court order based upon a
showing that the failure to comply was justified." Local Rule 26.2(C); see also Fed.
R. Civ. P. 37(c)(1) ("If a party fails to provide information or identify a witness as
required by Rule 26(a) or (e), the party is not allowed to use that information or
witness to supply evidence on a motion, at a hearing, or at a trial, unless the failure
was substantially justified or is harmless.").
Separate from (but related to) the nature of the damage issue is the issue of
costs of repair. Under Georgia law, in considering whether there was sufficient
evidence of the costs of repair for a house that had been damaged by arson, the
Georgia Court of Appeals stated: "[o]ne need not be an expert or dealer in the
article, but may testify as to value if he has had an opportunity for forming a correct

17

n

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 18 of 33

opinion. " Mayfield v. State. 307 Ga. App. 630,633, 705 S.E.2d 717, 720 - 721 (2011).
Here, the Plaintiffs have not presented a witness who will testify as to his/ her
opinion of the repair costs amounting to underpayment. The Court recognizes that
there are estimates in the record from Jerry Lockhart and Just Decks; however,
submission of only a repair estimate of proof is inadmissible hearsay and
accordingly, insufficient to establish the amount of the repair. See Groover v.
Groover. 279 Ga. 507, 508, 614 S.E.2d 50, 52 (2005) ("The estimates were hearsay
because the preparers of the estimates did not testify."). The Court also recognizes
that the Plaintiffs cite the AAA Restoration estimate of Mr. McCune; however, as
correctly noted by State Farm, at his deposition, Mr. McCune indicated that the AAA
Restoration estimate was not limited to the damages associated with the tree loss.
Doc. No. 86-1,22.1
Georgia Courts have further held that "[t]he owner of property is considered
to be qualified to state his opinion as to value" when based upon a proper
foundation. Mayfield. 307 Ga. App. at 633.9 The Plaintiffs do not provide any cites
8Plaintiffs also cite the Court to an email correspondence with Mr. McCune
which contains the following statement: "The damage that was caused by the tree is a
timely and costly repair." Doc. No. 88-9,40. In reading this statement and the
deposition testimony together, the Court is unable to conclude that this statement
establishes that the estimate Mr. McCune gave was solely due to the damage from the
tree.
9See also John Deere Constr. Co. v. Mark Merritt Constr.. 297 Ga. App. 743,744,
678 S.E.2d 183 (2009) (“Opinion evidence as to the value of an item, in order to have
18

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 19 of 33

to their deposition testimony in the record to this regard. The Court's review of the
record shows that Mr. Matthews testified at his deposition that" [w]ith me being a
contractor, I know for sure I could not fix none of this stuff... for $9400." Doc. No.
92, 109, lines 2-4.10 This testimony does not establish the costs of the repair.
Doughty v. Simpson, 190 Ga. App. 718,720,380S.E.2d 57,60 (1989) ("Determination
of whether the witness has established sufficient opportunity for forming a correct
opinion, and a proper basis for expressing his opinion, is for the trial court."). "A
jury must be able to calculate the amount of damages from the data furnished and
it cannot be placed in a position where an allowance of loss is based on guesswork."
Home's Pest Control Co. v. Elliott, 190 Ga. App. 351,352,378 S.E.2d 734,736 (1989).
Without more, the testimony of Mr. Matthews leaves the jury to guesswork as to the
costs of repair and also does not establish causation.
The Court finds that the Plaintiffs have not met their burden of coming

probative value, must be based upon a foundation that the witness has some
knowledge, experience or familiarity with the value of the property in question or
similar property and he must give reasons for the value assessed and also must have
had an opportunity for forming a correct opinion.").
10Mrs. Matthews deposition testimony also does not establish repair costs or
causation. She testified that she does not have any engineering, contracting, or
estimating experience. Doc. No. 91,20. When asked about numbers, she replied
indicating that "I'm not a contractor." Doc. No. 91, p. 48, line 25 and p. 54, lines 12-13.
See Hutto v. Shedd. 181 Ga. App. 654,656,353 S.E.2d 596,598 (1987) (holding that there
was no rational basis for owners value opinion where owners were not familiar with
building costs or procedures).
19

\CV ^

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 20 of 33

forward with specific, admissible facts showing a genuine dispute so as to survive
the present motion for summary judgment.
3. Alleged refusal to reconcile differences in the estimates
Plaintiffs also argue that State Farm has "refused to work with any contractor
in 'good faith' to reconcile any differences that may exist between estimates." Doc.
No. 88-1, 28. Plaintiffs argue that they have identified several instances where
damages that exist to the home that will not be repaired in accordance with present
estimates. Doc. No. 88-1,17. Plaintiffs argue that "notable line items are missing
from both estimates created." Doc. No. 88-1,8. Plaintiffs argue that the deposition
testimony identifies "repair processes" not in the estimates as follows. Id.
Repair of the wall - Plaintiffs state that there is no line item or process
identified in either of State Farm's estimates that would accomplish paying for the
task of jacking out an eighteen-story [sic]11 wall. Doc. No. 88-1,8-9. Plaintiffs go on
to reference the testimony of State Farm's adjuster, Van Westmoreland, which states
that his $705 line item would accomplish the test. Doc. No. 88-4,50, Westmoreland
depo., p. 139, line 19.12 The Plaintiffs offer no evidence that this line item is incorrect.

nThe Court notes that in other places in the record, the wall is described as two
stories. See e.g., Craig report, Doc. No. 88-5,7.
12The Plaintiffs use the number "$705." Doc. No. 88-1,9. The deposition contains
the number "$703." Doc. No. 88-4,50, Westmoreland depo. page 139, line 19.
20

•IP-c,

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 21 of 33

The Court finds that State Farm has met its summary judgment burden. The Court
is unable to conclude that the Plaintiffs have met their burden of coming forward
with specific facts showing a genuine dispute as to breach of contract by refusal to
reconcile differences in the estimates to this regard.
Rear deck - Plaintiffs argue that Mr. Westmoreland's estimate "does not
address the impact the deck has sustained from being forced inward .... and
therefore [the] repair estimate is deficient." Doc. No. 88-1, 9. Plaintiffs cite to the
Just Decks quote/estimate for a new deck/replacement that they received to this
regard. Doc. No. 88-5,31 - 32. As stated above, the Just Decks quote is inadmissible
hearsay.

Additional review of the record shows State Farm's adjuster, Mr.

Westmoreland, had seen the Just Decks estimate and did not agree with it in that
based on the engineer's report, removal of the old deck and reconstruction of a new
deck was not warranted.

Doc. No. 88-4, 49, depo, p. 134, lines 1-5.

Mr.

Westmoreland further testified that he thought the Creeden report recommended
replacements of two supports and the handrail. Id. at depo p. 135, lines 2-4. The
Court finds that State Farm has met its summary judgment burden. The Court is
unable to conclude that the Plaintiffs have met their burden of coming forward with
specific facts showing a genuine dispute as to breach of contract by refusal to
reconcile differences in the estimates to this regard.

21

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 22 of 33

Other areas - Plaintiffs state that a review of the deposition of Mr. Craig
shows that Mr. Craig "identifies damage or processes that would be standard
methods of repair for repairing damage to areas in the Plaintiffs property" which
are absent from Mr. Westmoreland's estimate of repairs. Doc. No. 88-1,10. The
focus of the argument appears to be as follows.
In paragraphs 13 and 14 his affidavit, Mr. Craig averred:
I have reviewed Mr. Westmoreland's estimate, and believe
that the scope of the repair work delineated in the estimate is
in line with the repairs necessary to repair the damages
caused by the tree striking the house as outlined in my report,
with one possible exception. In my report, I recommended
that, if the exterior sheathing of the home was rigid foam
material, then the exterior siding on a portion of the rear wall
of the home should be removed and reinforced using straps
on both faces of the studs. This was recommended solely for
precautionary reasons and to upgrade the structural capacity
of the wall. If, on the other hand, the sheathing was OSB, and
extended across any joints present, then the straps on the
exterior face of the studs would be unnecessary.
Based upon my review of Mr. Westmoreland's estimate, it
does not appear that the estimate included any siding
removal and/or reinforcement of the exterior face of the
studs on the rear great room wall. However, if State Farm
was able to confirm that the sheathing on the rear exterior of
the home was OSB, and extended across any joints present,
then this additional repair would not be necessary, and
would not need to be included in the estimate." Doc. No. 8614,4 - 5,113 and 114.13

13Plaintiffs also argue that Mr. Craig's deposition and affidavit testimony are
contradictory and prohibit summary judgment. Doc. No. 88-1,11. Plaintiffs cite a non22

*1

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 23 of 33

In his affidavit, Mr. Westmoreland averred:
Before preparing the estimate, I determined that the exterior
sheathing of the home was OSB material, which extended
across the joints present on the rear great room wall of the
Thus, as outlined in the Craig report, the
home.
recommended straps on the exterior face of the studs were
unnecessary. Accordingly, I did not include any siding
removal and/or reinforcement of the exterior face of the
studs on the rear great room wall in my estimate." Doc. No.
86-2,5, f 17.
The evidence in the record shows that Mr. Westmoreland's estimate
determined the type of material for the sheathing of the rear of the home, which
rendered additional straps recommended by Mr. Craig, unnecessary - Mr. Craig
also acknowledged that additional repair would not be necessary upon proper
determination of the sheathing material. The Court finds that State Farm has met

binding Ohio case in support of their argument. In response to Plaintiffs' argument,
Defendant states that contrary to Plaintiffs' argument, Craig's "affidavit testimony does
not contradict his deposition testimony." Doc. No. 89,12. Defendant states that Craig's
"knowledge regarding the estimate simply changed from the time he was deposed to
the time he executed the affidavit." Doc. No. 89,13.
The Georgia Court of Appeals has recently indicated that when a non-party's
deposition and affidavit conflict, such is not an issue for the court to resolve at
summary judgment. Naik v. Booker, 303 Ga. App. 282,692 S.E.2d 855 (2010). The
Georgia Court of Appeals has also held that a court is not permitted to apply Georgia's
contradictory testimony rule to exclude the testimony of a non-party witness at the
summary judgment stage. Rodrigues v. Georgia-Pacific Corp.. 290 Ga. App. 442,661
S.E. 2d 141 (2008). This rule only applies in the party context. See Prophecy Corp. v.
Charles Rossingnol, Inc., 256 Ga. 27,343 S.E. 2d 680 (1986). In light of this precedent,
this Court will not exclude Mr. Craig's deposition and/or affidavit testimony for
purposes of considering the pending motion for summary judgment.
23

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 24 of 33

its summary judgment burden. The Court is unable to conclude that the Plaintiffs
have met their burden of coming forward with specific facts showing a genuine
dispute as to breach of contract by refusal to reconcile differences in the estimates
to this regard.
4. September 21,2009 event
Plaintiffs further argue that Defendant breached their contract by not paying
for the September 21, 2009 covered loss after a report of a leak in Plaintiffs' family
room. Doc. No. 88-1,21.
In their Complaint, Plaintiffs state that or about September 21, 2009, they
reported a leak in their family room to State Farm for which "Plaintiffs contend...
is a result of the original event of loss. Doc. No. 1-1,8,

40 and 42.

The Court notes that Plaintiffs argue that they made a claim by notifying State
Farm of the leak on September 21, 2009 and reference a State Farm letter in the
record (dated September 25,2009), which state: "You have asserted a new claim for
water damage." Doc. No. 88-10,25. The letter then states that State Farm will need
to conduct a visual inspection of the home to determine whether this is a covered
loss or related to a previous loss. The record also shows that for various reasons, a
period of time passed before the inspection took place. The record further shows
that after the inspection, Plaintiffs were notified (via a letter from Defense Counsel

24

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 25 of 33

dated April 8,2010) that State Farm did not believe that "this damage is connected
to the tree hitting the house, but the result of water entering the home around the
chimney chase." Doc. No. 88-10,43. Defense Counsel further stated: "[t]here may
be coverage for these damages if you wish to submit a separate claim. Should you
wish for State Farm to open a separate claim associated with the water damage in
the two-story family room, please notify me, and I will alert State Farm
immediately." Id. In support of its motion for summary judgment, State Farm
attached the affidavit of its adjuster, Van Westmoreland, who averred that"Plaintiffs
never filed a claim for this damage." Doc. No. 86-2, 7, f 21.
While the Court recognizes the claim language in the September 25,2009 letter
cited by Plaintiffs, the Court also recognizes the specific instructions to Plaintiffs
provided in the April 8,2010 letter from Defense Counsel regarding the opening of
a separate claim. In the absence of evidence showing compliance with Defense
Counsel's instructions to notify him of whether Plaintiffs wished to open a separate
claim and in the absence of specific citation by Plaintiffs to language in the insurance
policy to the contrary, the Court finds that State Farm has met its summary
judgment burden. The Court finds that Plaintiffs have not met their summary
judgment burden of showing breach for failure to pay for the September 21, 2009
loss.

25

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 26 of 33

C. Bad faith penalties
Defendant further argues that summary judgment is proper because Plaintiffs'
claim for bad faith penalties fails as a matter of law.
In Count Two of the Complaint, Plaintiffs allege that more than sixty days
have passed since their July 20, 2009 and July 31, 2009 demands for payment
associated with the event of loss and "said refusal to pay is in bad faith" entitling
Plaintiffs to damages and attorney's fees as defined in O.C.G.A. § 33-4-6. Doc. No.
1-1, 9. O.C.G.A. § 33-4-6(a) provides in relevant part:
In the event of a loss which is covered by a policy of
insurance and the refusal of the insurer to pay the same
within 60 days after a demand has been made by the holder
of the policy and a finding has been made that such refusal
was in bad faith, the insurer shall be liable to pay such holder,
in addition to the loss, not more than 50 percent of the
liability of the insurer for the loss or $ 5,000.00, whichever is
greater, and all reasonable attorney's fees for the prosecution
of the action against the insurer.
"To prevail on a claim for an insurer's bad faith under O.C.G.A. § 33-4-6, the
insured must prove: (1) that the claim is covered under the policy, (2) that a demand
for payment was made against the insurer within 60 days prior to filing suit, and (3)
that the insurer's failure to pay was motivated by bad faith." Bavrock Mortg. Corp.
v. Chicago Title Ins. Co.. 286 Ga. App. 18, 19, 648 S.E.2d 433 (2007); O.C.G.A. §
33-4-6.

In regard to the three elements for recover of bad faith penalties, there

26

Ik

c-'

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 27 of 33

appears to be no dispute as to the first element, i.e., that the claim is covered under
the policy. In regard to the second element, i.e., demand, in their Complaint,
Plaintiffs state that they made a July 20, 2009 demand and a July 31,2009 demand
for payment. Doc. Nos. 1-1,79 and 89-1,2. This lawsuit was filed on April 13,2010.
The Georgia Court of Appeals has held that "[n]o specific language is required [to
make the demand]; however, '[the language used must be sufficient to alert] the
insurer that it is facing a bad faith claim for a specific refusal to pay so that it may
decide whether to pay the claim/" BayRock Mortg. Corp., 286 Ga. App. at 20, 648
S.E.2d at 435. A review of the July 20 and July 31,2009 letters in the record shows
that they do not contain language indicating that State Farm is facing a bad faith
claim for refusal to pay.
In regard to the third element of a claim for bad faith, i.e., whether there has
been a failure to pay motivated by bad faith, the Court notes that the Georgia Court
of Appeals has established that "[b]ad faith is shown by evidence that under the
terms of the policy under which the demand is made and under the facts
surrounding the response to that demand, the insurer had no 'good cause' for
resisting and delaying payment." Ga. Inti. Life Ins. Co. v. Harden, 158 Ga. App. 450,
454(2), 280 S.E.2d 863 (1981). The Court of Appeals has further held that although
the question of good or bad faith is ordinarily for the jury, the insurer is entitled to

27

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 28 of 33

judgment as a matter of law if it has reasonable grounds to contest the claim or the
question of liability is close. Atlantic Title Ins. Co. v. Aegis Funding Corp.. 287 Ga.
App. 392,393,651 S.E.2d 507,508 (2007). More specifically," [penalties for bad faith
are not authorized [, however,] where the insurance company has any reasonable
ground to contest the claim and where there is a disputed question of fact."
Assurance Co. v, BBB Svc. Co., 259 Ga. App. 54, 58(2), 576 S.E.2d 38 (2002). "In
reaching this determination a court should carefully scrutinize any claim of a contest
in facts to preclude the reliance by an insurance company on fanciful allegations of
factual conflict to delay or avoid legitimate claims payment." Rice v. State Farm Fire
& Cas. Co., 208 Ga. App. 166,169,430 S.E.2d 75, 78 (1993).
State Farm argues that none of the prerequisites for an award of bad faith
penalties has been met in that it has complied with the terms and conditions of the
policy and never refused to issue payment on the Plaintiffs' claim. Doc. No. 86-1,
24. State Farm argues that it has acted in good faith to resolve this matter by issuing
a payment based on the scope of damages outlined in the engineering report
submitted by Plaintiffs. Doc. No. 86-1,25. State Farm argues that there was no bad
faith in refusing to issue payment based on Plaintiffs' July 20, 2009 request for
payment because the Plaintiffs' estimate for repairs clearly exceed the scope of the
damages outlined in the engineer's report and related to the May 1,2009 loss. Doc.

28

W>

■c>

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 29 of 33

No. 86-1,25.
In response to Defendant State Farm's arguments, Plaintiffs argue that bad
faith is shown through State Farm hiring an engineering firm with a lapsed business
and engineering license. Doc. No. 88-1, 26. In response, State Farm argues that
Chapski's professional engineering license was not lapsed at the time of inspection,
and this is immaterial as State Farm did not base its payments to Plaintiffs on
Chapski's assessment. Doc. No. 89, 7-8.
The Court agrees that the status of Mr. Chapski's license is an immaterial and
collateral matter to the Plaintiffs' bad faith claim. As stated above, the test for bad
faith involves whether the insured had reasonable grounds to contest Plaintiffs'
claim or question liability. Here, the record shows that Mr. Chapski's report was not
used to derive the estimate for which State Farm issued payment to Plaintiffs.
Without more, Plaintiffs argument regarding Mr. Chapski's licensure status fails.
Plaintiffs also argue differences between the Craig and Creeden engineering
reports as evidence of bad faith. Doc. No. 88-1, 25. State Farm argues that this is
immaterial because its payments were based upon the damages and repairs outlined
in the Creeden report. Doc. No. 89, 8. The Court agrees.
Plaintiffs argue the failure to pay the September 21,2009 leak. Doc. No. 88-1,
26. However, as noted above, there is nothing in the record showing that Plaintiffs

29

:ase l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Paae 30 of 33

complied with Defense Counsel's instructions for opening a separate claim for the
September 2009 leak (or that they made a demand for payment/4 as the July 20 and
July 31,2009 letters would not be applicable to the September 2009 leak). The Court
is unable to uphold the Plaintiffs' bad faith argument to this regard.15
Plaintiffs argue violation of the Georgia Unfair Claims Practices Act. By the
plain language of the Act, O.C.G.A. § 33-6-37, there is no private cause of action in
Georgia under the Unfair Claims Settlement Practices Act. See O.C.G.A. § 33-6-37
("Nothing contained in this article shall be construed to create or imply a private
cause of action for a violation of this article."). Plaintiffs have also not pled such a
violation in their Complaint. The Court is unable to uphold the Plaintiffs' argument
to this regard.

14Cf. Stedman v. Cotton States Ins. Co., 254 Ga. App. 325,328,562 S.E.2d 256, 259
(2002) ("The letter makes no reference to a demand for payment and simply
acknowledges receiving a notice of claim, which is not the same as a demand for
payment.”).
15Plaintiffs also argue efforts to dissociate the May 1,2009 covered event and the
September 2009 leak. The Court notes that Plaintiffs have not cited to evidence in the
record showing that the events are related.
Plaintiffs also state that State Farm has notified them of reversal of a decision to
cover a loss in regard to the study/ office and family room water leaks and this refusal
to pay constitutes bad faith. Doc. No. 88-1,22. The Plaintiffs have not cited the Court to
evidence showing a reversal of decision. Without more, the Court is unable to uphold
this argument. See Martin v. Commercial Union Ins. Co., 935 F.2d 235,238 (11th Cir.
1991) ("The party opposing the motion must present specific facts in support of its
position and cannot rest upon allegations or denials in the pleadings.")
30

c-

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 31 of 33

The crux of Plaintiffs' bad faith arguments involves the alleged conflict of
interest between Defendant State Farm and Georgia's Office of Insurance and Safety
("DOI"). As stated above, the Court deems it important to note that it does not
oversee and/or regulate Georgia's Office of Insurance and Safety, a state agency.
Plaintiff also cites to a California case, Sprague v. Equifax, Inc., 166 Cal. App. 3d
1012 (Cal. App. 2. Dist 1985) through which it appears that Plaintiffs are essentially
arguing bad faith due to motive and intent, as illustrated by underpayment. The
Court notes that California law is not binding on this Court.
In reviewing the Plaintiffs' arguments, it also appears to the Court that the
Plaintiffs are arguing bad faith under general contractual principles, as opposed to
the more narrow test of O.C.G.A. § 33-4-6 which Plaintiffs allege in Count Two of
their Complaint. Said test is set out above and as applied in Georgia courts, it
focuses on the insurer's reasonable grounds to contest the claim and/or question
liability. While the Court notes that an issue of material fact may arise for the jury
if it were considering bad faith in the general context in regard to the conduct of
both parties in this matter, a jury issue does not arise under the present factual
circumstances as to the narrower definition of bad faith under O.C.G.A. § 33-4-6.
See Great Southwest Exp. Co. v. Great Am. Ins. Co.. 292 Ga. App. 757,665 S.E.2d 878
(2008) (citing authority recognizing that damages for bad faith denial of insurance

31

Case l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Page 32 of 33

proceeds cannot be recovered under general contract or tort law). The Court finds
that State Farm had reasonable grounds to refuse the larger payment amounts
demanded by Plaintiffs. The reasonable grounds are found in State Farm's use of
the report of the engineer retained by Plaintiffs for purposes of preparing State's
Farm's estimates and payment drafts to Plaintiffs for the loss. Reasonable grounds
are also found in the absence of direct evidence from AAA Restoration and LMS
Construction as to whether their construction estimates were based on actual
damage from the tree strike. In focusing on the reasonable grounds test alone, the
Court finds that State Farm is entitled to judgment as a matter of law.

See

Pennsylvania Millers Mut. Ins. Co. v. Davis, 186 Ga. App. 301,302, 367 S.E.2d 91,
92 (1988) ("We have reviewed the entire trial transcript... and find that defendant
refused to pay plaintiffs' claim because of an expert's exhaustive opinion that
plaintiffs' air conditioner was not damaged by lightning . . . .Under these
circumstances, we find the award of attorney fees under O.C.G.A. § 33-4-6 cannot
stand...."); cf. Georgia Farm Bureau Mut. Ins. Co. v. Mikell. 126 Ga. App. 640,191
S.E.2d 557 (1972) (physical precedent) (considering wide range of loss estimates, fact
that defendant made a bona fide settlement offer, and other factors to find that trial
court should not have submitted bad faith question to jury).
D. Attorney's fees
In Count Three of their Complaint, Plaintiffs seek attorney's fees alleging that
32

:ase l:10-cv-01641-SCJ Document 94 Filed 02/13/12 Paae 33 of 33

"Defendant State Farm has caused Plaintiffs unnecessary trouble and expense and
has been stubbornly litigious for which Plaintiffs are entitled to attorney fees." Doc.
No. 1-1,10. The Court notes that Plaintiffs are proceeding pro se in this action. The
Georgia Court of Appeals has held that "a pro se litigant who was not an attorney,
[is] not entitled to recover attorney fees..." under the statutory provision allowing
for attorney's fees in the event of bad faith and stubborn litigiousness. Demido v.
Wilson, 261 Ga. App. 165,169,582 S.E.2d 151,155 (2003). Accordingly, attorney's
fees are not awarded as a matter of law.
III. Conclusion
Defendant's Motion for Summary Judgment [Doc. No. 86] is hereby
GRANTED.
IT IS SO ORDERED, this 13th day of February, 2012.
s/Steve C. Jones__________________
HONORABLE STEVE C. JONES
UNITED STATES DISTRICT JUDGE

33

Appendix D
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

No. 11-63910
MERBAUM LAW GROUP, Movant
v.
GEORGIA E. MATTHEWS III, Respondent

Filed September 16, 2015

ORDER LATE PROOF OF CLAIM
Before: Judge Barbara Ellis-Monro

4

i

IT IS ORDERED as set forth below:

Date: September 16,2015
Barbara Ellis-Monro
U.S. Bankruptcy Court Judge

UNITED STATES BANKRUPTCY COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
IN RE:
CASE NO. 11-63910-BEM

GEORGE E. MATTHEWS HI,

CHAPTER 13

Debtor.
MERBAUM LAW GROUP, P.C.,
Movant,

Contested Matter

v.
GEORGE E. MATTHEWS HI,
Respondent.
ORDER

Movant’s Motion to Allow Late Filed Proof of Claim (the “Motion”) [Doc. No.
57] and Debtor’s Objection to the Motion [Doc. No. 58] came before the Court for hearing on
September 15, 2015. Andrew Becker appeared on behalf of Movant. Debtor appeared pro se. At

031496

36007031527015

i

*

\*

the hearing, Debtor withdrew his opposition to the

Motion. Accordingly, it is ORDERED that

the Motion is GRANTED.
END OF ORDER

2

03i496

36007031527015

Appendix E
IN THE SUPERIOR COURT OF COBB COUNTY
STATE OF GEORGIA

No. 15-1-3498-51
MERBAUM LAW GROUP, Plaintiff
v.
NINA MATTHEWS, Defendant

Filed August 4, 2017

ORDER AND FINAL JUDGMENT ON
PLAINTIFFS MOTION FOR SUMMARY JUDGMENT
Before: Judge Reuben M. Green

5

Filed In Office Aug-04-2017 16:24:46
ID* 2017—0107499-CV
Pose 1

5S-2J.
IN THE SUPERIOR COURT OF COBB COI^ffV
STATE OF GEORGIA

"wlJ^SSf t Cobb Counts

Merbaum Law Group, P.C.,
Plaintiff
v.

Civil Action File Number
15-1-3498-51

Nina Matthews,
Defendant

ORDER AND FINAL JUDGMENT ON PLAINTIFF'S
MOTION FOR SUMMARY JUDGMENT
On July 17,2017, the Court heard oral argument on Plaintiff's Motion for
Summary Judgment. Plaintiff appeared and represented itself through David Merbaum
and Defendant appeared pro se. Both parties had previously submitted briefs in support
of their respective positions. After reviewing the pleadings, the entire record and
considering oral argument, the Court GRANTS Plaintiff's Motion for Summary
Judgment as set out more fully below.
The Court finds that Plaintiff and Defendant entered into a written attorney
client agreement ("Contract") dated March 30,2010 wherein Plaintiff agreed to provide
legal services to Defendant at an hourly rate of $275.00. The Contract provides that the
Defendant was also responsible for all out of pocket expenses incurred by the Plaintiff.
The Contract further provide that payment was due upon receipt of monthly invoices,
and that payments not made in a timely fashion are subject to $25.00 per month late fee
as well as interest at the rate of 1.5% per month. The Contract provides that the failure
to pay an invoice when due could result in [Plaintiff] filing a motion to withdraw and
the costs associated with said motion were part of the fees that would be due under the
Contract. The Contract also provide that if [Plaintiff} initiated a suit to collect fees under
the Contract that [Plaintiff] would be entitled to all costs and expenses of collection
including attorney fees even if [Plaintiff] chose to pursue collection as its own attorney.
The Contract details the methods of billing time increments as well. Finally the Contract
specifically provides that the [Defendant] read the contract, understands that it is a legal
agreement, had a full and complete opportunity to ask any questions about the Contract
and that only the terms set forth in the Contract are part of the contract.

je

The undisputed evidence in the record is that the parties entered into an
amendment to the Contract ("Amendment") on October 28,2010 wherein the
Defendant agreed to pay $7,500.00 for all legal work prior to October 27,2010 as well as
expenses incurred prior to that date that had not yet been billed to the Defendant.
Defendant agreed to pay $500.00 per month beginning November 10,2010. The
Amendment also provided that all legal work performed after October 27,2010 would
be billed at the rate of $225.00 per hour. Invoices were sent to the Defendant.
Summary judgment is proper under O.C.G.A. §9-11-56 where a party
demonstrates that there is no genuine issue of material fact and that the undisputed
facts, viewed in the light most favorable to the non-moving party, warrant judgment as
a matter of law. Hipes & Norton, P.C. v Pye Automotive Sales of Clwttanooga, Inc. 254 GA.
App. 360 (2002). A Defendant may not rest on its defenses in its pleadings or conclusory
statements but must come forward with facts showing a genuine issue remains to be
triad. Id. Applying these well-established principals of law, Plaintiff is entitled to a
summary judgment.
The Defendant did not introduce any evidence to create a genuine issue of
material issue of fact as to whether she signed the Contract and the Amendment or that
she had any defense to the enforceability of the Contract and the Amendment.
Defendant submitted her own affidavit in support of her response in opposition to
Plaintiffs Motion but said affidavit did not contain any facts to create a genuine issue of
material fact.
The Plaintiff provided undisputed evidence that the Defendant made two
$500.00 payments toward the amounts owed pursuant to the Amendment but did not
make any payments for legal services provided after October 27,2010. Defendant s
failure to make payments as agreed upon constitute a breach of the Contract and the
Amendment. A contract between attorney and client for legal services is valid and
binding on the parties where it complies with the usual rules of contract and is
consistent with the attorney's fiduciary and ethical responsibilities to the client.
Browning v Alan Mullinax & Assocs., P.C. 288 Ga. App. 43 (2007). As in any suit on
account for services rendered, after a lawyer presents evidence of the terms of the
contract, the services provided and accepted and the amount left unpaid, the burden in
opposing the summary judgment shifts to the client..." Hipes & Norton, P.C. v Pye
Automotive Sales of Clwttanooga, Inc. 254 GA. App. 360 (2002). Here, once die Plaintiff
met its burden, the Defendant offered no evidence which created a genuine issue of
material fact which would preclude the granting of a summary judgment for the

O

Plaintiff.

*

W

o
■Nl

I

o
o
vO
vO

<c

Accordingly, the Court granted Plaintiff's motion for summary judgment as to
liability on July 17,2017 and directed the parties to return to Court on July 18,2017 for a
hearing on damages.
On July 18,2017 the parties appeared at 9:00 a.m. for a hearing on damages.
Defendant appeared pro se. Plaintiff submitted the testimony of counsel for Plaintiff,
David Merbaum, who testified that he graduated Emory Law School and has been
practicing law since 1988. He testified that he is experienced in civil litigation having
handled hundreds of civil cases and many cases in which his clients have sought to
recover damages from insurance companies. Counsel for Plaintiff testified as to the
Agreement, the Amendment and all attorney fees and expenses incurred and stated that
in his expert opinion the attorney fees were fair and reasonable and were necessary for
the pursuit of the case when representing the Defendant. Merbaum further testified that
he has personal knowledge of the work that was performed, that the time entries on the
billing statements sent to the client represented the work that was performed and that
the bills were maintained in the ordinary course of business and it was the ordinary
course of business for the Plaintiff to maintain the billing records. Merbaum further
testified that the costs and expenses incurred in pursuing collection were fair and
reasonable and that the rate of $225.00 per hour for such work was more than
reasonable for both the work performed for the Defendant after October 27, 2010 and
for the collection efforts against the Defendant. Invoices detailing the services provided
were tendered into evidence and admitted.
Defendant did not offer any expert evidence to contest that the work was
performed or that the time and charges for said work was not reasonable. Defendant
admitted that she is not an attorney and does not have legal training. Moreover,
Defendant admitted that she did not have any personal knowledge regarding payments
made toward the amounts owed to the Plaintiff. Defendant offered no evidence to
create a genuine issue of material fact as to the attorney time incurred, the charges made
or the reasonableness of such time and charges.
H

Plaintiff introduced evidence that the after applying all payments and credits, the
principal amount due for attorney fees and expenses was $13,470.88 up to the point that
the Plaintiff was permitted to withdraw as counsel for Defendant on January 4,2011.
The evidence determined that interest due at the rate of 1.5% per month until July 2017
totals $15,962.74 and late fees at the rate of $25 per month up to July 2017 totals
$1,975.00. The Plaintiff introduced undisputed evidence that attorney fees and expenses
of $9,108.82 were incurred in trying to collect the amounts due from the Defendant.
Attorney fees incurred to collect amounts due from a former client are recoverable even
if attorney pursues collection using his own services. Sprexoell v Thompson & Hutson,

<3
ft
U
O

-si

S’ I
SO

o

-si
*
SO

a
<

South Carolina, LLC 250 Ga. App, 312 (2003); Vmghters v Outlaw 293 Ga. App. 620 (2008).
Plaintiff stated that he included a credit of $120.00 against the total amount due which
he represented that based on his best recollection, was the amount that was received
from the bankruptcy court of the Defendant's husband who was a former defendant in
the above action. Defendant introduced a ledger from the bankruptcy court showing
that the actual payment to Plaintiff was $614.16. Accordingly an additional credit of
$494.16 (the difference between the $120.00 credit that the Plaintiff applied toward the
amounts claimed and the $614.16 actual payment from the bankruptcy court) was
applied by the Court against the total amount due to the Plaintiff.
Based on the above, Plaintiff's motion for summary judgment is GRANTED and THE
Court enters a JUDGMENT in the amount of $39,902.66 for which execution shall issue.
This amount is comprised of a principal amount of $22,579.08 (attorney fees and
expenses) and interest and late fees of $17,3'23.5S.1
2 0 J *£fl*Y* h (
5® &rcLls

>

^'

Reuben M. Green
Judge, Superior Court of Cobb County
Order prepared by

David Merbaum
Attorney for Plaintiff
Copies to:

David Merbaum, Esq.
Nina Matthews

H

O
M
O
?I
SO

o

1 The $614.16 recovered from the bankruptcy court has been applied against accrued interest. All other
payments and credits were applied toward the principal amount due.

>1
*

'O
*
O
<

Appendix F
IN THE SUPERIOR COURT OF COBB COUNTY
STATE OF GEORGIA

No. 15-1-3498-51
MERBAUM LAW GROUP, Plaintiff
v.
NINA MATTHEWS, Defendant

Filed December 12, 2019

FINAL ORDER DISMISSING CASE WITHOUT PREJUDICE
Before: Judge Reuben M. Green

6

ID# 2019-0167557-CV
M EFILED IN OFFICE
CLERK OF SUPERIOR COURT
COBB COUNTY, GEORGIA

15103498
IN THE SUPERIOR COURT OF COBB COUNTY
STATE OF GEORGIA
MERBAUM LAW GROUP,

Rdoecca Keaton, Clem of Superior Court
Cobb Courtly, Georgia

)
)

)

Plaintiff,

DEC 12, 2019 01:50 PM

CIVIL ACTION FILE NO.

)

)

v.

15-1-3498-51

)
)
)
)

NINA MATTHEWS,
Defendant.

FINAL ORDER DISMISSING CASE WITHOUT PREJUDCE
This matter was set to come before the Court for a final hearing on Plaintiffs request for
attorney’s fees on December 12, 2019. Prior to the call of the calendar, Petitioner contacted the
Court indicating its intent to withdraw its request for attorney’s fees in connection with its Motion
to Compel Post-Judgment Discovery and remove the case from the Court’s calendar. Respondent
was copied on Plaintiffs request and did not respond. Absent the agreement of the parties, the
case remained on the calendar. Neither party appeared in Court on December 12,2019. Therefore,
it being apparent to the Court that Plaintiff has withdrawn its request for attorney’s fees the Court
hereby ORDERS that the above-styled action be DISMISSED without prejudice. Accordingly,
the Clerk of Court is hereby instructed to mark the above-styled case as “CLOSED.”
SO ORDERED, this the

tZ

day of Decembei>2fH^.

r )

HONORABLE; REUBEN M. GREEN
CHIEF SUPERIOR COURT JUDGE
COBB JUDICIAL CIRCUIT

if

Appendix G
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

No. 1:10-CV-1641
GEORGE MATTHEWS, NINA MATTTHEWS Plaintiffs
v.
STATE FARM FIRE & CASUALTY COMPANY Defendant

Filed: April 12, 2012

TRANSCRIPT OF MOTIONS HEARING FOR OCTOBER 25, 2010
Before: Willis B. Hunt, Jr.

7

1

1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

2
3
4
5

GEORGE MATTHEWS
NINA MATTHEWS,

6
PLAINTIFFS,
7
VS.
8
9

STATE FARM FIRE AND
CASUALTY COMPANY,

10
DEFENDANT.

)
)
)
)
)
)
)
)
)
)
)
)

CIVIL ACTION
FILE NO. 1:10-CV-1641-WBH
ATLANTA, GA
OCTOBER 25, 2010
10:10 A.M.

11
12
13
14

TRANSCRIPT OF MOTIONS HEARING
BEFORE THE HONORABLE WILLIS B. HUNT, JR.
UNITED STATES DISTRICT JUDGE

15
16
17
18
19
20

APPEARANCES:
FOR THE PLAINTIFFS:

DAVID MERBAUM
ANDREW BECKER
ATTORNEYS AT LAW

21
22
23

LORI BURGESS, OFFICIAL COURT REPORTER
(404) 215-1528

24
25

PROCEEDINGS RECORDED BY MECHANICAL STENOGRAPHY, TRANSCRIPT
PRODUCED BY CAT.

U.S. DISTRICT COURT
LORI BURGESS, RMR

EXHIBIT

w*

4

1

RIGHTLY OR WRONGLY, THAT AT SOME POINT I AM GOING TO BE A

2

DEFENDANT IN A MALPRACTICE ACTION.

3

WITH THAT.

4

THEM.

AND I AM NOT COMFORTABLE CONTINUING TO REPRESENT

AND THAT'S ALL THERE IS TO IT.

5
6

I AM NOT COMFORTABLE

THE COURT:

IS THERE ANY SORT OF FEE ISSUE

INVOLVED?

7

MR. MERBAUM:

THIS STARTED OUT AS AN HOURLY RATE

8

CASE.

9

WENT OUT, WHICH THE MATTHEWS'S CAME TO ME AND SAID, WE WOULD

I HAVE A WRITTEN AGREEMENT.

AFTER THE FIRST BILL

10

LIKE TO CONVERT IT TO A CONTINGENCY.

11

WAS A DELAY IN ME GETTING A NEW AGREEMENT TO THEM, WHICH I

12

SUBSEQUENTLY DID, WHICH HE OBJECTED TO.

13

OBJECTION WAS, I HAD A PHRASE IN THERE THAT PROVIDED FOR

14

PAYMENT OF ATTORNEYS FEES TO ME OF 100 PERCENT IN THE EVENT

15

THAT I EVER HAD TO FILE A MOTION, OR THE OTHER SIDE DID

16

SOMETHING THAT MADE ME SPEND A LOT OF EXTRA TIME AND EFFORT,

17

WHICH I FEEL I SHOULD BE COMPENSATED FULLY FOR, AND NOT

18

SPLIT ON A CONTINGENCY BASIS.

19

NOT SIGNED A NEW AGREEMENT,

I AM OUT ALMOST, TIME-WISE,

20

MONEY-WISE, ALMOST $20,000.

SO THAT'S THE ONLY DISPUTE.

21

I THINK THE PRIMARY

AT SOME POINT I AM GOING TO DO WHAT I NEED TO DO
TO GET PAID OR PROTECT MYSELF.

23

HOURLY FEE AGREEMENT AT THIS POINT.

25

THERE

BUT AS OF TODAY, THEY HAVE

22

24

I SAID, FINE.

THE COURT:

BUT THERE IS ONE SIGNED

AT THIS POINT IN TIME, IS IT YOUR

POSITION THEN THAT THE FIRM DOES NOT OWE THEM ANY MONEY?

IN

U.S. DISTRICT COURT
LORI BURGESS, RMR

^<3

5

1

OTHER WORDS, THEY HAVE NOT PAID YOU MONEY FOR WHICH YOU HAVE

2

DONE NO WORK?

3

MR. MERBAUM:

NO.

NO.

THEY GAVE ME A SMALL

4

EXPENSE RETAINER, WHICH I THINK HAS BEEN EXHAUSTED.

5

THAT I AM AWARE OF.

6

ON SUBPOENAS AND MILEAGE, POSTAGE, AND THINGS LIKE THAT.

I THINK IT WAS $150.

7

THE COURT:

8

MR. MERBAUM:

9

NOT

AND WE SPENT IT

IS THAT ALL THEY HAVE PAID?
AND JUST THE FIRST HOURLY BILL,

WHICH WAS I THINK ABOUT $2200.

10

THE COURT:

11

MR. MERBAUM:

12

THE COURT:

HOW LONG AGO WAS THAT?
THREE MONTHS AGO, AT LEAST.
TELL ME ABOUT THIS SITUATION THAT WE

13

HAVE NOW BEEN MADE PRIVY TO THROUGH THE PAPERS THAT HAVE

14

BEEN FILED IN THIS CASE ABOUT THE ISSUE, IF THERE IS ONE, AS

15

TO WHETHER THERE IS AN OBLIGATION TO DISCLOSE THE IDENTITY

16

OF THIS SO-CALLED EXPERT WHOSE OPINION IS UNFAVORABLE TO THE

17

PLAINTIFFS?

18

VIRTUE OF OUR KNOWLEDGE OF THAT?

19

I SHOULD NOT BE IN THE CASE?

20

WHAT DOES THAT DO TO THE COURT, IF ANYTHING, BY

MR. MERBAUM:

AM I IN A SITUATION WHERE

WHAT DO YOU SAY ABOUT THAT?

I DON' T KNOW WHY THE MATTHEWS 1 S

21

CHOSE TO PROVIDE ALL OF THAT INFORMATION TO YOU.

22

BUT CERTAINLY, THAT IS SOMETHING WITHIN ATTORNEY/CLIENT

23

PRIVILEGE.

24

THAT TO THE COURT.

25

WHEN THE CASE FIRST STARTED, AS TYPICALLY I DO

I THINK

IT IS THEIR PRIVILEGE IF THEY CHOSE TO PRESENT
THEY HAVE DONE THAT.

IT IS TOO LATE.
I DO A LOT

U.S. DISTRICT COURT
LORI BURGESS, RMR

h

6

1

OF CONSTRUCTION LITIGATION.

2

BRING SOMEBODY OUT TO TAKE A LOOK AT IT AND SORT OF GIVE ME

3

ANOTHER OPINION OF WHAT IS GOING ON HERE SO I CAN GET A GOOD

4

BALANCE FROM THEIR OWN EXPERT OBSERVATION, AND MAYBE WHAT

5

THE OTHER SIDE IS SAYING.

6

INDIVIDUAL, ROBERT KLINE, WHO I HAVE USED IN THE PAST, WHO

7

CAME OUT WITH ME.

8

THERE BEFORE I EVEN GOT TO THE HOUSE.

9

BRIEFLY ABOUT THE CASE, AND I DID NOT RETAIN HIM.

IN CASES OF THIS NATURE, I

AND I TOLD THEM ABOUT AN

WE WALKED AROUND

I THINK HE WAS OUT
AND WE CHATTED

10

PAY HIM.

11

THAT IS OKAY.

12

AND IF YOU WANT ME TO BRING HIM OUT.

13

DON'T KNOW IF THEY SIGNED ANY DOCUMENTS WITH HIM.

14

THINK SO.

15

I SORT OF TENDERED HIM TO THE MATTHEWS'S.

I DID NOT
I SAID,

AND HE ASKED FOR MONEY, THAT IS YOUR DEAL,
AND HE CAME OUT.

I

I DON'T

AND I DON'T THINK HE HAS BEEN PAID.
BUT MY UNDERSTANDING FROM THE RESEARCH WE DID, AND

16

THERE IS NOT A DIRECT CASE IN THIS CIRCUIT THAT WE'VE SEEN,

17

BUT HE IS WHAT THEY CALL AN INFORMALLY CONSULTED EXPERT.

18

AND WE OBJECTED TO THE INTERROGATORY WHERE HE MIGHT HAVE

19

NEEDED TO HAVE BEEN DISCLOSED.

20

DISCLOSED.

21
22

TO REVEAL HIS NAME OR THE FACT THAT WE'VE CONSULTED WITH
HIM. I THINK THE OBJECTION ON ITSELF WOULD STAND, AND WE

23

DON'T HAVE TO GIVE AN EXPLANATION FOR THE OBJECTION THAT WE

24

EVEN CONSULTED WITH HIM WAS HE' S AN INFORMALLY CONSULTED

25

EXPERT.

BUT HE HAS NOT BEEN

AND I BELIEVE, AT THIS POINT, WE DON'T EVEN HAVE

U.S. DISTRICT COURT
LORI BURGESS, RMR
U
)

38

1

DISCOVERY DISPUTE WITH EFI INSURANCE AND DEPARTMENT OF

2

INSURANCE ARE EXPLAINED IN A THREE OR FOUR-PAGE LETTER.

3

BELIEVE THE MATTHEWS' S PRODUCED THAT LETTER AS PART OF —

4

THE COURT:

DO YOU THINK THAT YOU HAVE ENOUGH, OR

5

BOTH SIDES, HAVE ENOUGH INFORMATION IN THE CASE TO MAKE ANY

6

SORT OF MEDIATION PROFITABLE AT THIS TIME?

7

MR. BECKER:

YOUR HONOR, I DON'T KNOW THE FINAL

8

NUMBER THAT WAS ASKED FOR BY THE MATTHEWS' S IN THEIR

9

SETTLEMENT LETTER, BUT I BELIEVE THE GULF IS JUST TOO MUCH.

10

THERE IS

11
12

THE COURT:

14
15
16
17

WELL, DOES THEIR EXPERT SUPPORT WHAT

THEY WANT?

13

MR. BECKER:

IT IS THE AMOUNT OF DAMAGE.

IT'S

NOT —
THE COURT:

OH, HE JUST TELLS YOU WHAT IS WRONG,

HE DOESN'T SAY HOW MUCH IT COSTS?
MR. BECKER:

IT IS THE CONTRACTORS THAT DIFFER.

18

THEIR CONTRACTOR IS 180,000 SOMETHING.

19

TO FIX THE DAMAGE IS 11,000.

20

HONOR, IS — NEVER MIND ANY OTHER CLAIMS AND ANY MONETARY

21

SETTLEMENT THAT THE MATTHEWS'S MIGHT WANT.

22

I

THE COURT:

STATE FARM IS SAYING

AND THAT GULF, I BELIEVE, YOUR

YOUR VIEW IS THAT DISCOVERY WOULD HAVE

23

TO BE COMPLETED BEFORE ANY SORT OF SETTLEMENT DISCUSSIONS

24

WOULD BE WORTH DOING?

25

MR. BECKER:

MY BELIEF, YOUR HONOR, IS WE WOULD

U.S. DISTRICT COURT
LORI BURGESS, RMR

39

1

HAVE TO GO THROUGH DISCOVERY.

2

EACH OTHER'S EVERYTHING, EVERYBODY BE DEPOSED, INCLUDING, I

3

THINK, THE DEPOSITION OF THOSE CONTRACTORS IS PROBABLY KEY

4

TO A MEDIATION IN THE FUTURE.

5

WOULD BE INTERESTED IN MEDIATING WITHOUT DEPOSING THE

6

MATTHEWS'S CONTRACTOR.

7

THE COURT:

BOTH SIDES WOULD HAVE TO SEE

I DON'T THINK STATE FARM

I AM NOT INTERESTED WHETHER STATE FARM

8

WANTS TO.

9

WOULD PARTICIPATE BECAUSE WE TELL THEM TO PARTICIPATE.

IF I THOUGHT IT WOULD BE EFFECTIVE TO DO IT, THEY

10
11

MR. BECKER:

YOUR HONOR, I JUST DON'T THINK

WITH

12

THE COURT:

BUT WHAT I GATHER FROM YOU, AND WHAT I

13

PERCEIVE IN GENERAL FROM WHAT I HAVE HEARD THIS MORNING,

14

IT'S TOO SOON.

15

HAVE ENOUGH TO BE ABLE TO EVALUATE WHERE A FAIR SETTLEMENT

16

WOULD LIE.

17

A COMPLETION OF SOME OF THESE EVENTS, AND THAT IS TO SAY THE

18

DEPOSITION OF THE PARTIES, THE DEPOSITIONS OF THE WITNESSES,

19

THE EXPERT WITNESSES, AND THEN MEDIATION MIGHT WORK OUT.

20
21

AND IF

- I MEAN, THE MEDIATOR WOULD NOT

EVENTUALLY, THAT CAN HAPPEN, BUT THERE HAS TO BE

HAVE YOU GOT ANYTHING ELSE THAT YOU WANT TO TELL
US?

22

MR. MERBAUM:

23

THE COURT:

24

HERE IS WHAT I AM GOING TO DO.

25

NO, SIR.
YOU MAY HAVE A SEAT OVER THERE.
AFTER WHAT I HAVE

HEARD THIS MORNING, I AM GOING TO TRY TO MEDIATE THE DISPUTE

U.S. DISTRICT COURT
LORI BURGESS, RMR

t

L5

40

1

BETWEEN THE TWO OF YOU, THE TWO SIDES.

2

THAT, TO THE MATTHEWS'S, AT THIS POINT IN A CIVIL CASE

3

IT'S NOT A CRIMINAL CASE.

4

A CRIMINAL CASE

5

TO GET OUT.

6

WHERE EVERYTHING WAS READY FOR TRIAL, THAT WOULD BE ANOTHER

7

MATTER.

8

DIFFICULT FOR THE COURT TO HOLD THEM IN, BOTH AT THEIR

9

EXPENSE AND AT YOUR EXPENSE UNDER THE CIRCUMSTANCES.

10

O'

FIRST LET ME SAY

IT WOULD BE DIFFERENT IF IT WERE

I HAVE A HARD TIME REFUSING THEIR DESIRE

YOU KNOW, IF WE WERE FURTHER ALONG IN THE CASE

BUT AT THIS POINT IN TIME, FRANKLY, IT WOULD BE

BUT I DO FEEL THAT NOW THAT Y'ALL ARE SITTING HERE

11

TOGETHER IN THIS COURTROOM, AND FROM WHAT I HAVE HEARD

12

TODAY, I DON'T SEE WHY YOU CAN'T MAKE ONE MORE STAB AT

13

TRYING TO GET TOGETHER ON WHAT NEEDS TO BE DONE IN THIS__

14

CASE.

15

MATTER TO ATTEND TO AT 11:30, BUT WHAT I WANT YOU TO DO, I

16

WANT YOU TO DO ONE OF TWO THINGS.

17

WITH EACH OTHER RIGHT HERE IN THE COURTROOM THIS MORNING AND

18

SEE IF THERE IS ANY WAY YOU CAN RECONCILE THE DIFFERENCES.

19

AND TO DO THAT, MS. MATTHEWS, YOU ARE GOING TO HAVE TO BACK

20

OFF OF SOME OF THE INSISTENCE ON YOUR DEMANDS, LISTEN TO

21

YOUR LAWYERS, AND BE WILLING TO GO ALONG WITH THEIR VIEW OF

22

HOW IT SHOULD PROCEED, BECAUSE THAT IS WHY THEY ARE ENGAGED.

23

I AM GOING TO RECESS NOW BECAUSE I'VE GOT ANOTHER

AND IT IS VERY DIFFICULT

I WANT YOU TO EITHER TALK

- I MEAN, I MYSELF WAS A

24

LAWYER ONCE.

25

TELLING YOU WHAT YOU OUGHT TO DO IN THE CASE.

IT'S VERY HARD TO HAVE A CLIENT THAT KEEPS
I MEAN, YOU

U.S. DISTRICT COURT
LORI BURGESS, RMR
a

41

i

1

KNOW, YOUR RESPONSE TO THAT IS, HEY, GET SOMEBODY ELSE, OR

2

DO IT YOURSELF IF, YOU KNOW

3

THESE QUESTIONS.

4

IF YOU HAVE TO ANSWER ALL OF

SO YOU HAVE TO BACK OFF SOME.

SO, AT THE SAME TIME, IT SOUNDS LIKE TO ME THAT

5

THE LAW FIRM IS DOING GOOD WORK, IS WELL-QUALIFIED TO DO

6

THIS KIND OF WORK.

7

KNOW, YOU NEED TO AGREE ON CONTINGENCY, WORK THAT OUT, AND

8

SEE IF YOU CAN'T TAKE A FEW DEPOSITIONS AND AT LEAST HAVE

9

MEDIATION AND SEE WHERE YOU ARE THERE.

10

AND IT'S AT A POINT WHERE,IF THEY — YOU

OR, IF YOU DON'T WANT TO MEET IN THE COURTROOM

11

TODAY, THEN WHAT I WANT YOU TO AGREE IS, SO THAT THE

12

MATTHEWS'S COME BY YOUR OFFICE BEFORE THE END OF THIS WEEK,

13

GIVE THEM AT LEAST AN HOUR'S TIME, TALK TO THEM, AND IF AT

14

THE END OF THAT TIME YOU CANNOT GET OUT, LET US KNOW.

15

WILL THEN RELIEVE THE LAWYERS OF THEIR RESPONSIBILITY ON THE

16

CONDITIONS SET FORTH IN THEIR LETTER, AND THAT IS THAT THERE

17

BE NO ADDITIONAL — ASIDE FROM SOME OUT-OF-POCKET COSTS

18

THERE WOULD BE NO ADDITIONAL CHARGE TO THE PLAINTIFFS.

19

THEN THEY CAN GO AND GET A LAWYER MAYBE WHO WILL AGREE TO

20

TAKE IT ON A CONTINGENCY AND MOVE FORWARD.

21

I

AND

BUT I DO WANT YOU TO HAVE THIS MEETING BETWEEN THE

22

PARTIES TO SEE IF THERE ISN'T SOME WAY YOU CAN GET ALONG.

23

IT SOUNDS LIKE TO ME, FROM HEARING MR. BECKER, THAT AN AWFUL

24

LOT HAS BEEN DONE IN THIS CASE, AND IS READY TO BE DONE,

25

THAT REALLY MEETS YOUR DEMANDS.

IT IS JUST THAT THAT IS NOT

U.S. DISTRICT COURT
LORI BURGESS, RMR

42

1
2

AN UNDERSTANDING BETWEEN THE TWO SIDES HERE AS TO THAT FACT.
ANYWAY, THAT IS WHERE I AM GOING TO LEAVE IT.

I

3

APPRECIATE IT.

4

THE END OF THE WEEK TO SEE WHETHER THERE IS ANY CHANCE THAT

5

Y'ALL CAN GET BACK TOGETHER OR NOT.

6

AM SORRY YOU HAVE HAD THIS MUCH DIFFICULTY, BUT I APPRECIATE

7

YOU COMING THIS MORNING.

AND I WILL LOOK TO HEAR FROM MR. MERBAUM AT

THANK YOU VERY MUCH.

WE ARE IN RECESS.

8

(END OF HEARING AT 11:10 A.M.)

9

* * * * *

10

I

REPORTER'S CERTIFICATION

11
12
13

I CERTIFY THAT THE FOREGOING IS A CORRECT TRANSCRIPT
FROM THE RECORD OF PROCEEDINGS IN THE ABOVE-ENTITLED MATTER.

14
15

O

17

^2=
LORI BURGESS
OFFICIAL COURT REPORTER
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA

18

DATE:

16

APRIL 12, 2012

19
20
21
22
23
24
25

U.S. DISTRICT COURT
LORI BURGESS, RMR
0\

J

Appendix H
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

No. 1:10-CV-1641
GEORGE MATTHEWS, NINA MATTTHEWS Plaintiffs
v.
STATE FARM FIRE & CASUALTY COMPANY Defendant

Filed: January 5, 2011

Order Withdrawal
Before: Willis B. Hunt, Jr.

8

Case l:10~cv-01641-SCJ Document 57 Filed 01/05/11 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
GEORGE and NINA MATTHEWS,
Plaintiffs,
v.

CIVIL ACTION NO.
1:10-C V-1641 - WBH

STATE FARM FIRE AND
CASUALTY COMPANY,
Defendant.
ORDER
This matter is before this Court for consideration of Plaintiffs’ Counsel’s
motion to withdraw, [Doc. 55], and Plaintiffs motion to stay discovery, [Doc. 56].
Plaintiffs George and Nina Matthews have written a letter to the undersigned in
apparent response to their lawyers’ motion to withdraw. However, that letter does not
indicate that they oppose the withdrawal, and counsel’s motion to withdraw, [Doc.
55], is thus GRANTED.
Likewise, in the absence of opposition, Plaintiffs’ motion to stay discovery,
[Doc. 56], is GRANTED. Discovery in this matter is STAYED from December 23,
2010 until January 21, 2011, which should give Mr. and Mrs. Matthews ample
opportunity to secure new counsel.
IT IS SO ORDERED, this

, 2011.

y/)^

wIllis b.

HUNT, JR.
UNITED STATES DISTRICT JUDGE
AO 72A
(Rev.8/82)

iH

Appendix I
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

No. 11-63910
MERBAUM LAW GROUP, Movant
v.
GEORGIA E. MATTHEWS III, Respondent

Filed November 15, 2015

ORDER RELIEF FROM AUTOMATIC CO-DEBTOR STAY
Before: Judge Barbara Ellis-Monro

9

Case 11-63910-bem

Doc 69

Filed 11/10/15 Entered 11/10/15 15:49:03
Document
Page 1 of 3

OkA'

v H
■ •

Desc Main

'6:

?

IT IS ORDERED as set forth below:

Date: November 10, 2015
Barbara Ellis-Monro
U.S. Bankruptcy Court Judge

UNITED STATES BANKRUPTCY COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
IN RE:
CASE NO. 11-63910-BEM

GEORGE E. MATTHEWS, III,

CHAPTER 13

Debtor.
MERBAUM LAW GROUP, P.C.,
Movant,

Contested Matter

v.

GEORGE E. MATTHEWS III and NINA
MATTHEWS,
Respondents.
ORDER
Movant’s Motion for Relief From Automatic Co-Debtor Stay Pursuant to 11
U.S.C. § 1301(c)(2) [Doc. 56] came before the Court for hearing on September 15, 2015,
October 20, 2015, and November 10, 2015. Having considered the facts, the supplemental briefs
provided by the parties, and the legal authorities, it is

IX

k

Case 11-63910-bem

Doc 69

Filed 11/10/15 Entered 11/10/15 15:49:03
Document
Page 2 of 3

Desc Main

ORDERED that the Motion is GRANTED to allow Movant to pursue its rights
and remedies against the co-debtor to the extent Debtor’s plan does not propose to pay Movant’s
claim.
END OF ORDER

2

Distribution List
George E Matthews, III
6038 Katie Emma Drive
Powder Springs, GA 30127
Nina Matthews
6038 Katie Emma Drive
Powder Springs, GA 30127
Andrew J. Becker
Merbaum Law Group, P.C.
5755 North Point Pkwy., Suite 284
Alpharetta, Georgia 30022
Abbey M. Ulsh, Esq.
Barrett Daffin Frappier Levine & Block
15000 Surveyor Blvd., Suite 100
Addison, TX 75001
Mary Ida Townson
Chapter 13 Trustee
Suite 2200
191 Peachtree Street, NE
Atlanta, GA 30303-1740

i

3

2?

No. 20-.

IN THE
SUPREME COURT OF THE UNITED STATES

George Matthews and Nina Matthews
Petitioners,
vs.
David Merbaum and Andrew Becker
Respondents.

On Petition for a Writ of Certiorari to
The United States Court of Appeals
For the Eleventh Circuit
APPENDIX TO THE PETITION FOR A WRIT OF CERTIORARI

George Matthews
Nina Matthews
6038 Katie Emma Drive
Powder Springs, Georgia 30127
Tel.: 404-213-8324
E-Mail: matthews.6038@vahoo.com
Pro-Se Petitioners

